<html>
<title> - CITIZEN PREPAREDNESS: HELPING OUR COMMUNITIES HELP THEMSELVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     CITIZEN PREPAREDNESS: HELPING OUR COMMUNITIES HELP THEMSELVES

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2007

                               __________

                           Serial No. 110-47

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                   U.S. GOVERNMENT PRINTING OFFICE
48-921 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness and Response......................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness and Response............     2
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    44
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    45
The Honorable Donna M. Christensen, a Delegate in Congress from 
  the U.S. Virgin Islands........................................    42
The Honorable Sheila Jackson Lee, a Representative in Congess 
  from the State of Texas........................................    48

                               Witnesses

Mr. Regina Chapline, Texas Citizen Corps Manager, Texas 
  Association of Regional Councils:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. Corey Gruber, Acting Deputy Administrator for National 
  Preparedness, Federal Emergency Management Agency:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Graham Hill, Member, National Council on Disability:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Johanna Schneider, Executive Director, Partnership for 
  Disaster Response:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Philip Stittleburg, Chairman, National Volunteer Fire 
  Council:
  Oral Statement.................................................    31
  Prepared Statement.............................................    32

                                Appendix

Additional Questions and Response:
  Responses from Mr. Corey Gruber................................    57
  Responses from Mr. Philip Stittleburg..........................    58


     CITIZEN PREPAREDNESS: HELPING OUR COMMUNITIES HELP THEMSELVES

                              ----------                              


                        Wednesday, June 13, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:01 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Dicks, Christensen, 
Etheridge, Jackson Lee, and Dent.
    Mr. Cuellar. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony from 
the Department of Homeland Security and key stakeholders 
involved in the Citizen Corps program. Witnesses will discuss 
the continuing effort to prepare our nation's citizens to be 
better prepared to deal with acts of terrorism, natural 
disasters or other emergencies. Specifically, the hearing will 
examine challenges faced by our state and local government 
first responders and nongovernmental organizations in the area 
of citizen preparedness.
    We will review the effectiveness of the citizen 
preparedness programs at the department and the unique issues 
that are confronted by families, disadvantaged communities and 
individuals with disabilities during disasters.
    The chair also would like to acknowledge that a member of 
the committee who does not sit on the subcommittee assembled 
today, the gentlewoman from Texas, Ms. Jackson Lee, will 
participate, and she will be joining us after a while. 
Consistent with its rules and practices of the committee, we 
are pleased to honor her request.
    I now ask for unanimous consent to allow Representative 
Jackson Lee to sit and question the witnesses today.
    So, without objection, it is so ordered.
    Again, I want to thank the witnesses for being here today, 
and on behalf of the members of the subcommittee, again, we 
welcome you, and we look forward to hearing your testimony. We 
are glad that you all are here to discuss the challenges that 
communities face in preparing citizens, including those with 
special needs, for all the disasters.
    Adequate preparation, as you know, can reduce the fear and 
anxiety that accompany many of the disasters that we see. 
Communities, families, individuals need to know what to do in 
the event of an emergency and be ready to evacuate their homes 
and take refuge in shelters. They need to know how to care for 
their basic medical needs.
    If a disaster occurs in a community, the local government 
and disaster relief organizations will try to help, but 
citizens need to be ready as well. In the event the local 
responders are not able to reach everyone immediately, ample 
preparation can make a big difference.
    I am looking forward to hearing about the critical federal 
citizen preparedness programs such as the Citizen Corps and 
ready.gov, as well as the roles that each of you play in 
executing those programs.
    I welcome any suggestions you might have on how to enhance 
our efforts at the federal level, and I am also interested to 
hear about FEMA's implementation of the provisions of the Post-
Katrina Emergency Management Reform Act that pertain to 
engaging disadvantaged communities.
    I am sure our witnesses from the National Council on 
Disability will address how they will work with FEMA to 
implement many of these reforms. I am particularly delighted to 
hear testimony today from Ms. Chapline, who is managing the 
Citizen Corps program in my home state of Texas.
    And by the way, the Spurs are doing very well--3-0, for any 
persons from Cleveland here.
    She is doing a great job at getting diverse communities 
across the state of Texas to get involved in preparedness.
    Finally, I am interested in hearing from other key 
stakeholders present, such as the National Volunteer Fire 
Council and Disasters Preparedness Business Council. And I 
would like to hear about the increased volunteerism and the 
role of the business community in the disaster response 
efforts.
    So again, I want to thank all of the witnesses for being 
here with us.
    And at this time I would like to recognize my colleague, 
the ranking member of the subcommittee, the gentleman from 
Pennsylvania, Mr. Dent, to go ahead and do his opening 
statement.
    Mr. Dent. Thank you, Mr. Chairman.
    And certainly thanks to all of those who will testify 
today.
    Preparing our citizens to help themselves and their 
communities in the event of a natural disaster or terrorist 
attack is one of the most important aspects of emergency 
preparedness and response.
    Less than 1 percent of the U.S. population is formally 
trained to be an emergency responder. On average, there is just 
one firefighter for every 265 people, one paramedic for every 
325 people, and one sworn law enforcement officer for every 334 
people. This means that one of the best ways to ensure a quick 
and effective responses to an event is to prepare our citizens 
to help themselves and their neighbors.
    To do this, and to foster a culture of personal 
responsibility, the Citizen Corps program was established 
within DHS through a model replicated at the Federal, State and 
local levels. Citizen Corps Councils bring together elected 
officials, business and community leaders, law enforcement, 
emergency management personnel, emergency medical personnel, 
school administrators, and others with an expertise or interest 
in emergency preparedness.
    Council participants help assess emergency preparedness and 
response needs of communities, develop and implement homeland 
security goals and priorities, and participate in emergency 
preparedness training and exercise programs.
    I am pleased that Mr. Corey Gruber, the Acting Deputy 
Administrator for National Preparedness, is here today to 
discuss how DHS supports the efforts of over 2,100 Citizen 
Corps Councils throughout the country. I am particularly 
interested in discussing with him how the Citizen Corps program 
leverages other Federal resources, including DHS's Ready 
Campaign, to promote citizen preparedness.
    Also with us today are representatives of various State and 
local government and nongovernmental organizations that 
contribute to the work of the Citizen Corps Councils.
    For instance, Johanna Schneider, who represents the 
Disaster Preparedness Initiative of the Business Roundtable, is 
here to discuss how businesses can serve as a force multiplier 
in community preparedness. As Ms. Schneider will discuss, 
businesses can not only encourage their employees to prepare 
themselves and their families for disaster, but also help to 
train and coordinate employees who choose to serve as 
volunteers during a disaster.
    I would like to thank all the witnesses for joining us 
today and look forward to hearing your thoughts on this 
important topic.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    And as you know, members of the subcommittee are reminded 
under the committee rules that opening statements may be 
submitted for the record.
    And now I welcome the panel of witnesses.
    Our first witness will be Mr. Corey Gruber, who is the 
acting deputy administrator for national preparedness at the 
Federal Emergency Management Agency at the Department of 
Homeland Security. Mr. Gruber has over 15 years of experience 
in the areas of emergency planning programming and response.
    And again, Mr. Gruber, good seeing you again.
    Our second witness is Mr. Graham Hill. He is a member of 
the National Council on Disability. Mr. Hill was recently 
confirmed by the U.S. Senate to serve on the council. He 
previously served as the subcommittee staff director and senior 
counsel to the House Transportation and Infrastructure 
Committee.
    Welcome, Mr. Hill.
    Our third witness is Regina Chapline, who is the Texas 
Citizen Corps manager for the Texas Associational of Regional 
Councils. Ms. Chapline works closely with the governor's 
division of emergency management as the state point of contact 
responsible for programmatic development and administration of 
the programs that fall under the Citizen Corps umbrella.
    Welcome.
    Our fourth witness is Mr. Phil Stittleburg, who is the 
chairman of the National Volunteer Fire Council and chief of 
the LaFarge Fire Department of Wisconsin. He has been serving 
in the volunteer fire service since 1972.
    And again, sir, welcome to our committee.
    Our fifth witness is Ms. Johanna Schneider, who is the 
executive director of the Partnership for Disaster Response of 
the Business Roundtable. She has been serving and managing 
communications in the communications field for over 12 years.
    And again, welcome, Ms. Schneider.
    And, all of you, we are pleased that you are here with us.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each of the witnesses to summarize his or her 
statement for 5 minutes, beginning with Mr. Gruber.

  STATEMENT OF COREY GRUBER, ACTING DEPUTY ADMINISTRATOR FOR 
   NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Gruber. Chairman Cuellar, Ranking Member Dent, members 
of the subcommittee, I am pleased to have this opportunity to 
discuss the department's citizens preparedness efforts this 
morning.
    The department has a strong commitment to engage the public 
in preparedness. We recognize that the more engaged the public 
is in emergency planning preparedness and response, the more 
prepared and resilient our communities are when a disaster 
occurs.
    As we have seen from Hurricane Katrina and other disasters, 
during the first 72 hours of a major incident, professional 
emergency responders can both be victims of the event and often 
spread too thin to take care of everyone in every location. 
Citizens must be prepared in advance to take immediate and 
effective steps to protect themselves and their families.
    Even more importantly, citizens that have been trained in 
emergency preparedness can provide critically needed assistance 
to overburdened responders. For this reason we have included 
citizen preparedness and participation as key elements in all 
of our national preparedness guidance. This includes the 
national preparedness goal.
    Homeland security strategies are developed by our states 
and urban areas that guide planning and resource investments 
and guidance that we develop for states, territories and urban 
areas that receive assistance under our Homeland Security grant 
program and, of course, the National Response Plan.
    We are also working to address gaps in preparedness that 
were pointed out in the nationwide plan review that was 
conducted following Hurricane Katrina. That review found 
several critical areas for improvement. Those included the need 
to fully engage citizens in planning, training and exercises, 
the need to improve public alerts and warnings, the need to 
improve planning for evacuation and shelter in place, 
particularly for people with special needs, and the need to 
integrate volunteer resources to expand our emergency search 
capacity.
    To address these issues, we are working closely with states 
and our major metropolitan areas to enhance their planning. 
This includes our community preparedness office participating 
in updates of FEMA's state and local planning guide, which 
provides guidance to states and communities in writing their 
emergency operations plans.
    We are also advancing citizen preparedness through three 
major departmental initiatives. Those include the Ready 
Campaign, of course, Citizens Corps, and FEMA's disaster 
education program.
    Ready is our department's public awareness campaign to 
encourage people to take simple steps to make themselves and 
their families prepared for emergencies. The Ready Campaign's 
messages are distributed through a variety of public outreach 
efforts, including advertisements, Web sites, brochures and 
media outreach, and the campaign focuses especially on kids, 
families, businesses and Spanish-speaking individuals through 
our Ready Kids, Ready Business and Listo programs. Ready works 
closely with Citizen Corps and our Citizen Corps Councils 
across the nation to implement Ready branded local initiatives.
    Citizen Corps is, of course, the department's grassroots 
initiative to actively involve citizens in homeland security 
through their personal preparedness, training and volunteer 
service. Citizen Corps brings community and government leaders 
together to coordinate the involvement of community members and 
nongovernmental resources.
    Since 2002 the department has awarded almost $135 million 
to support Citizen Corps initiatives across the country. 
Citizen Corps has five programs--Community Emergency Response 
Teams, the Medical Reserve Corps, Fire Corps, USAonWatch, and 
Volunteers in Police Services--that all provide national 
resources that our citizens apply at the state and local level.
    Citizen Corps, of course, was highlighted in the White 
House Katrina report as one of the things that went right 
during the response. Thousands of volunteers worked across the 
country to provide shelter and services to victims of the 
hurricane. The White House report noted that Citizen Corps was 
successful because it had been coordinated ahead of time with 
local businesses and volunteer groups and because they were 
familiar with and implemented elements of the incident command 
system.
    The Citizen Corps mission is accomplished through a 
national network of nearly 2,200 state, local, territorial and 
tribal Citizen Corps Councils that cover 75 percent of the 
total U.S. population. The councils are the key to help driving 
local citizen preparedness and participation. Citizen Corps 
also partners with 25 major nonprofit organizations across the 
country that also promote community preparedness.
    In addition to Citizen Corps and Ready, FEMA has a robust 
education program and a host of materials, a disaster 
preparedness curriculum, and a well-populated Web site that 
provides ample information to the public. Through these 
initiatives, the department is working to increase citizen 
preparedness, engage citizens across the country and leverage 
their assistance to support our emergency response officials.
    Mr. Chairman, thank you for the opportunity to provide 
information on these efforts and initiatives, and I look 
forward to your and the members' questions.
    [The statement of Mr. Gruber follows:]

                 Prepared Statement of Corey D. Gruber

Introduction
    Chairman Cuellar, Ranking Member Dent, and Members of the 
Subcommittee, my name is Corey Gruber, and I serve as Acting Deputy 
Administrator of the National Preparedness Directorate of the Federal 
Emergency Management Agency (FEMA) in the Department of Homeland 
Security (DHS).
    I am honored to appear before you today to discuss the Department's 
citizen preparedness efforts. Today, I wish to highlight for you the 
Department's key efforts to engage the public in preparedness, 
primarily through the Ready Campaign and Citizen Corps.
    We have many dramatic examples of the importance of citizen 
preparedness. Hurricanes Katrina and Rita, in particular, illustrated 
that the more the public is engaged with government in emergency 
planning, preparedness, and response--particularly through social 
networks such as faith-based organizations, professional associations, 
business groups, and neighborhood associations--the more prepared and 
resilient our communities will be when an incident occurs.
    The public must be part of local planning, training, and exercising 
so they will know what to do when the ``real thing'' happens. The 
American people are the ultimate stakeholders in the homeland security 
mission and must be an integral part of national preparedness efforts. 
Today, I will share with you key aspects of our national strategy for 
working with State, territorial, tribal, and local jurisdictions, as 
well as other partners, to engage the public in emergency preparedness.

National Strategy
    Our national strategy for citizen preparedness recognizes that 
citizen preparedness, like emergency response, must be rooted in strong 
local efforts to integrate citizens and communities and requires 
locally or regionally developed plans to address each community's 
unique risks and capabilities. The Federal role is to provide national 
policy and guidance, a national-level awareness campaign, and resources 
to support State and local efforts to prepare and include citizens in 
homeland security.

National Guidance
    DHS is committed to integrating citizen preparedness and 
participation in all appropriate national preparedness guidance. 
Citizen preparedness and participation are included as integral 
elements of key guidance documents, including the Interim National 
Preparedness Goal (NPG) and its Interim Target Capability List (TCL), 
State and Urban Area Homeland Security Strategies, Homeland Security 
Grant Program (HSGP) Guidance, and the National Response Plan.
    Homeland Security Presidential Directive 8 (HSPD 8) specifically 
directs the Secretary of Homeland Security to work with other Federal 
departments and agencies, as well as State and local governments, the 
private sector, and non-governmental organizations, to encourage active 
citizen participation and involvement in preparedness efforts. This 
directive led to the development of the Interim National Preparedness 
Goal and its National Preparedness Priorities, including a National 
Priority specifically directed at strengthening planning and citizen 
preparedness. Citizen Preparedness and Participation is one of 37 
target capabilities in the Target Capability List, and is identified as 
a ``common capability'' that cuts across all four mission areas: 
prevent, protect, respond, and recover. The capability is defined as 
ensuring that ``. . .everyone in America is fully aware, trained, and 
practiced on how to prevent, protect/mitigate, prepare for, and respond 
to all threats and hazards. This requires a role for citizens in 
exercises, ongoing volunteer programs, and surge capacity response.''
    Another of the National Preparedness Goal's associated tools, the 
Universal Task List (UTL), also addresses citizen participation. For 
example, the UTL lists the following required preparedness tasks: ``. . 
.provide volunteer services, allocate volunteers across the emergency 
support functions, and utilize national, regional, and local volunteer 
services.''
    In addition, in developing their Homeland Security Strategies, 
States and Urban Areas are required to tailor and update existing 
strategic goals and objectives to support citizen preparedness efforts. 
Citizen coordination is integrated throughout the guidance for States 
and Urban Areas receiving funding through the Homeland Security Grant 
Program (HSGP). For example, the grant guidance directs States to ``. . 
.include an integrated approach to engaging citizens in preparedness, 
training, exercises, and volunteer support for emergency responders 
through Citizen Corps Councils. States are encouraged to fully leverage 
HSGP resources to accomplish this goal.''

Need for Citizen Preparedness
    Emergency responders in America make up less than one percent of 
the U.S. population. This roughly translates to one firefighter for 
every 280 people, one sworn officer for every 385 people, and one EMT/
paramedic for every 325 people.
    Hurricanes and other major incidents in recent years graphically 
demonstrate that there are not enough emergency responders to take care 
of everyone, in every location during the most critical time--the first 
72 hours after a disaster. In fact, the Los Angeles Fire Department 
estimates that in 95 percent of all emergencies, it is bystanders or 
victims themselves who first provide emergency assistance or perform a 
rescue before a professionally trained emergency responder can arrive 
on the scene. Citizens must be aware of what steps to take to protect 
themselves and their families. We also encourage people to get trained 
in basic skills they can use to help themselves and others in an 
emergency. Importantly, citizens who acquire these skills can offer a 
pair of ``trained hands'' to help overwhelmed emergency responders 
during major disasters.
    As part of the Nationwide Plan Review, conducted in the spring of 
2006, the Federal government's first comprehensive assessment of State 
and Urban Area catastrophic planning, citizen and community 
preparedness strengths and weaknesses were assessed in several areas: 
Warning, Emergency Public Information, Evacuation, and Mass Care and 
Resource Management. The findings of the assessment for all 50 States, 
5 Territories, the District of Columbia, and 75 of the largest urban 
areas highlighted the need to improve how the Nation:
    <bullet> Fully integrates citizens and non-governmental entities in 
planning, training, and exercises;
    <bullet> Addresses effective public alerts and warnings;
    <bullet> Plans for citizen protective actions, particularly 
evacuation and sheltering;
    <bullet> Engages in planning and proactive thinking in preparing to 
meet the needs of special needs populations before, during and after 
emergencies; and
    <bullet> Integrates volunteer and non-governmental resources 
(personnel, equipment, facilities, and consumable resources) for surge 
capacity.
    To help jurisdictions address these findings as well as other 
Nationwide Plan Review findings, the DHS Citizen Corps program is 
participating in the current FEMA effort to update the ``State and 
Local Guide 101'' document, which provides guidance to State and local 
entities on writing Emergency Operations Plans.
    The Department administers two main programs to encourage 
preparedness and engage citizens in local preparedness activities--the 
Ready Campaign and Citizen Corps. To complement these efforts, FEMA 
also develops, publishes, and distributes community preparedness 
informational materials. These three initiatives work hand-in-hand to 
build citizen preparedness.

Ready
    Ready is the Department's public awareness campaign to encourage 
people to take simple steps to make themselves and their families more 
prepared for emergencies. DHS and Citizen Corps work together with 
locally-based Citizen Corps Councils throughout the Nation to provide 
``Ready-branded'' materials as a base for preparedness initiatives. In 
addition, Citizen Corps fully supports implementation of Ready's 
National Preparedness Month initiative each September by hosting 
hundreds of local events around the country.
    Ready encourages all individuals to do three key things to prepare 
for emergencies: get an emergency supply kit, make a family emergency 
plan, and become informed about the different types of emergencies that 
could occur and their appropriate responses. The Ready Campaign's 
messages are distributed through a variety of public outreach efforts, 
including advertisements, websites, brochures, partnerships, and media 
outreach. The campaign not only reaches out to individuals, but also 
targets children and families, businesses and Spanish-speaking 
individuals through Ready Kids, Ready Business and Listo--all 
extensions of the Ready Campaign.
    The Ready Campaign partners with the Department's Private Sector 
Office to promote Ready Business, which aims to help owners and 
managers of small-to-medium size businesses prepare their employees, 
operations, and assets in the event of an emergency. In addition, in 
response to requests by parents and teachers for information 
appropriate to share with children, the Department created Ready Kids, 
a family-friendly extension of the Ready Campaign. Ready Kids is a tool 
to help parents and teachers educate children, ages 8-12, about 
emergencies and how they can help their families prepare.
    The Ready Campaign also has Listo, Listo Negocios, and Listo Ninos, 
which are Spanish language versions of the Ready Campaign's efforts. 
These companion materials ask individuals, businesses, and families to 
do the same things to prepare as the English versions, but do so in a 
way to better facilitate outreach to the Hispanic community.
    The Department has worked with The Advertising Council to develop, 
produce, and distribute television, radio, print, outdoor, and Internet 
Public Service Advertisements (PSAs). The campaign currently has more 
than 100 PSAs for Ready, Ready Business (business preparedness), and 
Listo in various formats, including documentary-style ads, Spanish ads, 
and ads featuring former Presidents George H.W. Bush and Bill Clinton 
and First Lady Laura Bush. All of these ads run in space donated by 
media companies across the Nation. To date, Ready has received more 
than $642 million worth of donated broadcast air time and print 
advertisement space.
    The Ready Campaign also delivers its message through the 
www.ready.gov and www.listo.gov websites, which feature information, 
materials, and local resources. As of March 31, 2007, these websites 
have received more than two billion hits and 26 million different 
visitors. The Department also operates toll-free phone lines, 1-800-BE-
READY and 1-888-SE-LISTO, which provide basic information on personal 
preparedness and allow callers to order free publications. There are 
currently more than a dozen Ready brochures, including versions in 
English and Spanish that highlight individual, family, and business 
preparedness, as well as special publications for older and disabled 
Americans, pet owners, and teachers. As of March 31, 2007, the toll-
free numbers have received more than 293,000 calls; and more than 11.5 
million Ready materials have been requested or downloaded from the 
website. In the four years since it was launched, the Ready Campaign 
has established itself as a successful effort to encourage Americans to 
prepare for emergencies. The Ad Council has declared Ready one of the 
most successful campaigns in its more than 60-year history.
    The Ready Campaign also uses organizational and media outreach to 
spread its messages. Ready has relationships with a wide variety of 
public and private sector organizations. For example, Minor League 
Baseball and the Boy Scouts of America have partnered with Ready since 
2003 to distribute emergency preparedness information at baseball games 
across the country. The Department has also been successful in 
encouraging State and local governments to play key roles in helping to 
create a culture of preparedness. When Ready was created, only a 
handful of State and local efforts existed; now nearly every State and 
major city is doing something to encourage their residents to prepare.
    Over the past four years, there has been dramatic growth in these 
localized efforts to focus and re-emphasize the Ready message. Media 
coverage is another venue the Department has used to communicate with 
citizens about emergency preparedness. During 2006, the Department 
issued nearly a dozen news releases and conducted more than 340 media 
interviews on Ready with outlets across the Nation that reached an 
audience of more than 61 million Americans.
    While it is too early to effectively gauge the long-term effects of 
Ready on public preparedness, thus far there are indications of 
progress. Annual national surveys conducted by the Ad Council for the 
campaign and its extensions have yielded positive results:
        <bullet> A national survey of the general public conducted in 
        June 2006 found that 91 percent of respondents said it is 
        important for all Americans to be prepared for emergencies. 
        From 2005 to 2006, the proportion of Americans who said they 
        have taken any steps to prepare rose 10 points, from 45 percent 
        to 55 percent.
        <bullet> A national survey of Hispanic Americans conducted in 
        August 2005 found that 96 percent of respondents said it is 
        important for all Americans to take steps to be prepared for 
        emergencies. Thirty-nine percent of Hispanic Americans report 
        having put together an emergency supply kit.
        <bullet> A national survey of businesses with fewer than 1,000 
        employees conducted in December 2006 found 88 percent of 
        respondents said that it is important for businesses to take 
        steps to prepare for a catastrophic disaster. Forty-seven 
        percent said their company has an emergency plan in place in 
        the event of a disaster, an increase of 8 percent from 2005.

FEMA's Citizen Corps
    Citizen Corps is the Department's grassroots initiative to actively 
involve all citizens in the effort to secure the homeland through 
planning, personal preparedness, training, and volunteer service. 
Citizen Corps plays a critical role in facilitating and fostering 
preparedness activities among State and local entities that are not 
traditionally involved in emergency management.
    Citizen Corps is coordinated nationally by the Department of 
Homeland Security through the Community Preparedness Division in FEMA's 
National Preparedness Directorate. Citizen Corps provides a national 
strategy and program support for State and local program 
implementation. In just five years since Citizen Corps was launched in 
2002, it has grown to over 2,200 State, local, Tribal, and Territorial 
Councils, encompassing 75 percent of the nation's population.
    Citizen Corps works with five national programs through 
partnerships with other Federal agencies and national organizations. 
The five programs--Community Emergency Response Teams (CERT), Medical 
Reserve Corps (MRC), Fire Corps, USA On Watch/Neighborhood Watch (NWP), 
and Volunteers in Police Service (VIPS)--provide national resources for 
training and exercising citizens at the State and local level.
    Citizen Corps was highlighted in the White House's report on the 
Federal response to Hurricane Katrina as one of the things that went 
right. In particular, the report described the efforts of the Harris 
County, Texas, Citizen Corps Council in providing shelter and services 
for hurricane victims at the Houston Astrodome. The Council built a 
functioning city virtually overnight to process over 65,000 evacuees 
from New Orleans. More than 60,000 Citizen Corps volunteers contributed 
to the success of the operation, while throughout the country, Citizen 
Corps and its program partners supported many other welcoming and 
shelter operations to receive displaced victims. The White House report 
noted that Citizen Corps was successful because ``they had coordinated 
ahead of time with local businesses and volunteer groups, and because 
they were familiar with and implemented elements of the Incident 
Command System.''
    The concept behind Citizen Corps is that every State and territory 
should have a network that will implement the national citizen 
preparedness goals and guidance according to local needs and resources. 
Citizen Corps does not compete with existing volunteer organizations; 
rather it seeks to embrace all the organizations in a community and 
bring them together working towards homeland security. Because every 
community is unique, Citizen Corps is flexible to deal with each 
community's needs and priorities. However, every Citizen Corps 
initiative has a common thread: they all involve ordinary citizens 
volunteering in local communities to help secure the homeland.
    Using Citizen Corps as its platform, a State or local government 
can launch a Ready Campaign, distribute emergency information, organize 
community resources for planning and preparedness efforts, or provide 
disaster readiness education.
    Each of the 2,200 individual Citizen Corps Councils bring together 
the expertise of leaders from the emergency responder disciplines with 
the resources of volunteers, the private sector, elected officials, and 
other community stakeholders. These Councils examine community 
preparedness from a multi-discipline, comprehensive standpoint and work 
to engage citizens as strategic partners in community preparedness. 
Citizen Corps Councils integrate local programs and activities that 
engage everyone in hometown security and foster increased collaboration 
between citizens and all emergency responder disciplines.
    Each community and region determines the appropriate geographic 
boundaries that its Council will serve and determines the Council 
membership. All Councils are connected to city, county, tribal, and 
State government through local elected leadership (mayor, county 
commissioner/county executive, or tribal chief), and emergency 
management or homeland security officials. State Citizen Corps points 
of contact are appointed by the governor. As part of its all-hazards 
mission, each Council looks for areas of focus unique to its community. 
For example, Councils in coastal or riverside communities might pay 
special attention to hurricanes and flooding, while Councils in areas 
with large immigrant populations might put more emphasis on multi-
cultural and multi-lingual outreach. The Detroit Citizen Corps Council 
is one example of the latter. Due to the high population of Iraqi-
Americans in the area, the Council has made a special effort to reach 
out to this community and integrate it into emergency planning and 
preparedness efforts.
    At the national level, Citizen Corps works with offices within the 
Department of Homeland Security, as well as with other Federal 
agencies, to provide support for these targeted efforts at the State 
and local level. National priorities established by Citizen Corps 
include preparedness for individuals with disabilities, pet owners, 
senior citizens, and youth. Best practice examples from across the 
country are solicited as a base for leveraging the work of local 
Councils and communities. As such, the Department is working with 
Citizen Corps to provide expertise and support for community based 
outreach and inclusion of potentially isolated key communities.
    Because Citizen Corps Councils can claim membership from an 
impressive array of groups including emergency responders, local 
volunteer organizations, business and civic leaders, and minority and 
special needs groups, the Councils provide a forum through which local 
homeland security leaders can work with community leaders and citizens 
to address the public safety and preparedness needs of the community. 
The multi-discipline collaboration achieved through Citizen Corps 
provides economies of scope and scale in implementing programs and 
activities. Having all decision makers at the table enables the 
community to manage existing volunteer resources strategically, 
leverage mutually supportive endeavors among the represented groups, 
and direct the overall local plans. Having established working 
relationships before an incident occurs also makes response 
coordination more effective.
    The programs and activities the Council implements help emergency 
responders tap the community's greatest resource--the voice and the 
power of the people. In addition, when emergency responders openly 
engage the public in preparedness and risk mitigation measures, 
training, exercises, and volunteer support, the public develops greater 
trust and appreciation for the responsibilities and services provided 
by those in uniform. This trust is critical when the public must 
respond to urgent information and directives during a crisis.
    Citizen Corps involves a partnership of government and non-
governmental organizations at all levels. Citizen Corps maintains an 
affiliation with 25 major nonprofit organizations and government 
agencies--such as the American Red Cross, the American Legion, and the 
Home Safety Council--whose programs promote community preparedness and 
through which individuals can find training and volunteer opportunities 
at the community level. Further, the Department has worked with 
partners such as AARP, the National Organization on Disability, the 
National Fire Protection Association, the American Society for the 
Prevention of Cruelty to Animals and the American Veterinary Medical 
Association, to create and distribute emergency information to targeted 
populations. The National Citizen Corps Council brings together more 
than 75 national non-governmental organizations and Federal agencies to 
collaborate across the responder disciplines and non-governmental 
sectors to support Federal, State, and local preparedness. Through 
these affiliations, the Citizen Corps network extends to tens of 
million of Americans.
    Citizen Corps also has developed partnerships to support its five 
major programs, as noted earlier:
        <bullet> The Community Emergency Response Team (CERT) program 
        is administered by FEMA. CERT educates citizens about disaster 
        preparedness and trains them in basic disaster response skills 
        such as fire safety, light search and rescue, and disaster 
        medical operations. CERT courses are delivered in the community 
        by a team of first responders who have completed CERT Train-
        the-Trainer (TTT) training conducted by their State Training 
        Office for Emergency Management or the Emergency Management 
        Institute.
        <bullet> Fire Corps is also funded through a cooperative 
        agreement with FEMA and is managed and implemented through a 
        partnership among the National Volunteer Fire Council, the 
        International Association of Fire Fighters, and the 
        International Association of Fire Chiefs. Fire Corps promotes 
        the use of citizen advocates to enhance the capacity of 
        resource-constrained fire and rescue departments at all levels: 
        volunteer, combination, and career.
        <bullet> The Medical Reserve Corps (MRC) program is 
        administered by the Department of Health and Human Services' 
        (HHS) Office of the Surgeon General. It strengthens communities 
        by helping medical, public health, and other volunteers offer 
        their expertise throughout the year, as well as during local 
        emergencies and other times of community need.
    <bullet> Neighborhood Watch/USAonWatch is funded by the Department 
of Justice (DOJ) and administered by the National Sheriffs' 
Association. The program incorporates terrorism awareness education 
into its existing crime prevention mission, while serving as a way to 
bring residents together to focus on emergency preparedness and 
emergency response training.
        <bullet> Volunteers in Police Service (VIPS) is funded through 
        DOJ's Bureau of Justice Assistance and managed and implemented 
        by DOJ and the International Association of Chiefs of Police. 
        VIPS works to enhance the capacity of State and local law 
        enforcement to utilize volunteers by serving as a gateway to 
        resources and information for and about law enforcement 
        volunteer programs. Today, there are 2,682 CERTs, 632 Fire 
        Corps programs, 1,558 VIPS programs, 671 MRC units, and nearly 
        14,800 Neighborhood Watch programs.
    As part of providing national support to increase the effectiveness 
of preparedness education nationwide, Citizen Corps has established a 
cooperative agreement to conduct research on citizen preparedness in 
America. The research includes tracking and analysis of community 
preparedness survey results from multiple sources, analysis of media 
treatment of preparedness and disasters, analysis and summary of multi-
disciplinary research on factors that affect individual and community 
preparedness, and a review and analysis of national and field level 
expert advice on the top priorities for all-hazard protective measures 
that save lives. Research reviews are published quarterly through the 
Citizen Corps website. Four issues of the Citizen Preparedness Review 
have been published to date.
    The most recent issue, on Citizen Corps' Personal Behavior Change 
Model for Disaster Preparedness, identifies the key factors needed to 
motivate citizens to take personal action to prepare. Key findings 
highlight the importance of localizing preparedness education to target 
local risks and plans for protective actions, and the critical role 
community networks play in preparing individuals by reinforcing 
preparedness in a community or organizational context.
    Citizen Corps is also working closely with the Department of 
Homeland Security's Science and Technology Directorate on research 
related to civic engagement and other factors affecting community 
resiliency. These research areas will provide a more robust basis for 
measuring preparedness and the impact of preparedness on both 
consequences and recovery.
    Since 2003, the Department has awarded over $100 million to support 
Citizen Corps. Since Fiscal Year (FY) 2004, Citizen Corps Program 
funding has been included as one of the five grant programs under the 
Homeland Security Grant Program (HSGP). In order to leverage additional 
funding for this important priority, the Department has integrated 
community preparedness throughout the HSGP guidance as grant 
expenditures across all five HSGP grant programs. States use these 
funds to support a broad range of citizen preparedness activities that 
can include establishing a Citizen Corps Council, providing citizens 
with preparedness training--including CERT training, communicating 
citizen preparedness messages, and developing professional responder 
exercises that include a test of the citizen response role.
    From fiscal year 2004 through fiscal year 2006, States spent nearly 
$140 million to establish and enhance citizen volunteer initiatives, 
citizen awareness of emergency preparedness, prevention, and response 
measures, and Citizen Corps Councils. Fifty-one percent of the $140 
million is DHS funding beyond the Citizen Corps Program dollars, with 
the remainder being supported by Citizen Corps Program funding alone.

FEMA Disaster Education Materials
    FEMA has developed disaster education materials, a disaster 
preparedness curriculum, and a well-populated website, which all 
provide a wide range of information to the public on preparing for, 
responding to, and recovering from disasters. This includes training 
and related materials available through the Emergency Management 
Institute, such as the Are You Ready? Guide to Citizen Preparedness, 
independent study courses, and facilitator's guide.
    The Guide to Citizen Preparedness is FEMA's most comprehensive 
source on individual, family, and community preparedness. It provides a 
step-by-step approach to disaster preparedness by walking the reader 
through how to get informed about local emergency plans, how to 
identify hazards that affect their local area, and how to develop and 
maintain an emergency communications plan and disaster supplies kit. 
Other topics covered include evacuation, emergency public shelters, 
animals in disaster, and information specific to people with 
disabilities. Are You Ready? also provides in-depth information on 
specific hazards, including what to do before, during, and after each 
hazard type.

    Conclusion
    Through Citizen Corps, Ready, and other initiatives, the Department 
is working to increase citizen preparedness, engage citizens in 
preparedness planning and programs, and leverage citizen assistance to 
support emergency response professionals. Thank you, Mr. Chairman, for 
the opportunity to provide information on these efforts and for your 
continued support for this important work. I would be happy to respond 
to any questions you or Members of the Subcommittee may have.

    Mr. Cuellar. Thank you, Mr. Gruber. Good seeing you again. 
Thank you for your time. We do have some questions, and again, 
thank you.
    At this time I would like to recognize Mr. Hill and ask you 
to summarize your statement in 5 minutes.

     STATEMENT OF GRAHAM HILL, MEMBER, NATIONAL COUNCIL ON 
                           DISABILITY

    Mr. Hill. Thank you, Mr. Chairman.
    And thank you, Mr. Dent. It is good to see you again.
    My name is Graham Hill, and I am here representing the 
National Council on Disability, which is a small, independent 
federal agency that is charged with making recommendations to 
the president and Congress on improving the quality of life and 
government services for the disabled.
    After 9/11, the National Council on Disability decided to 
begin in earnest studying and evaluating government's growing 
role in homeland security and emergency preparedness and 
evacuations. Our first report that summarized those evaluations 
came out in the early spring of 2005 and was called ``Saving 
Lives.'' This was about 6 months before Katrina.
    The summary of Saving Lives is that too often the needs of 
the disabled are just overlooked in the actual practical local 
plans for emergency evacuation in manmade and natural 
disasters. The content of Saving Lives was--after Katrina--
looked at as kind of prophetic and became a building block when 
Congress was constructing the Post-Katrina Emergency Reform Act 
that was passed by Congress last fall in the Homeland Security 
Approps Bill.
    The National Council on Disability was included in aspects 
of the Reform Act to address the issues that were raised in the 
Saving Lives report. Section 513 of that act lists 10 
activities that a new disability coordinator that would be 
housed at FEMA will undertake. And our job under that act is to 
interact with FEMA to build capabilities at the local level 
that improve the responsiveness and preparedness of the local 
emergency planners for the disabled.
    Before this act and before Katrina, we noted in our study 
and our evaluation of government that a lot of practical, 
difficult to plan from a national point of view, aspects of the 
disabled were being overlooked--accessible bathroom facilities, 
for example, accessible emergency notification procedures were 
not in place, and a host of other items that if you look at 
section 513, you can get a sense of how locally rooted they 
are.
    As a result of that, we have concluded that community-based 
organizations such as the ones that Mr. Gruber has mentioned 
and other witnesses here at the table are going to be critical 
for FEMA to help locals plan to those requirements that were in 
the Reform Act. As a practical matter, they have to be included 
as our frontline disaster preparedness planning groups. Their 
familiarity with the local disability community is the best 
source of accurate information for local emergency planners.
    The strength and skills of these CBOs are currently not 
fully integrated into these plans, and that is one thing that 
the National Council on Disability and FEMA are going to work 
together on under section 513 to accomplish. Without that 
involvement, we will be left with a variety of disabled people 
who either don't receive notification in time or don't know 
themselves what to do in the event of an emergency.
    For example, after Katrina the Kaiser Family Foundation did 
a poll of people in New Orleans that were evacuated to the 
Astrodome. When asked what was the biggest reason you did not 
leave New Orleans earlier, 22 percent of the respondents said, 
``I was physically unable to leave.'' An additional 23 percent 
said, ``I had to stay and care for someone who was disabled and 
couldn't leave.'' Together, that makes about 45 percent of the 
folks that wound up at the Astrodome not otherwise earlier 
evacuating because of something linked to a disabled person.
    That is a lot of people for a local emergency planner to 
have to deal with if they don't know in advance who they are, 
where they are and what kind of plan is in place. And so the 
National Council on Disability is happy and looking forward to 
working with FEMA as the disability coordinator is appointed. 
We understand from correspondence we received from FEMA 
yesterday that that will occur very soon, and we will then be 
working with them to go through the list of plan activities 
included in section 513.
    Thank you.
    [The statement of Mr. Hill follows:]

                   Prepared Statement of Graham Hill

Background
    The national Council on Disability (NCD) is an independent federal 
agency making recommendations to the President and Congress to enhance 
the quality of life for all Americans with disabilities and their 
families. NCD is composed of 15 members appointed by the President and 
confirmed by the U.S. Senate. In 2003, NCD committed itself to 
evaluating government's developing role and work in the areas of 
homeland security, emergency preparation and disaster relief. This 
commitment occurred, in large measure, as a result of the man-made 
homeland security terrorist event of September 11, 2001, and the 
creation of a new Executive Branch agency--i.e., the U.S. Department of 
Homeland Security. NCD's first evaluation findings were issued in April 
of 2005 in the report, Saving Lives: Including People with Disabilities 
in Emergency Planning (http://www.ncd.gov/newsroom/publications/2005/
saving_lives.htm).
    I would like to bring to your attention the following information 
that was included in the letter of transmittal to the President that 
accompanied NCD's Saving Lives report. ``All too often in emergency 
situations the legitimate concerns of people with disabilities are 
overlooked or swept aside. In areas ranging from the accessibility of 
emergency information to the evacuation plans for high-rise buildings, 
great urgency surrounds the need for responding to these people's 
concerns in all planning, preparedness, response, recovery, and 
mitigation activities.''
    Saving Lives was eerily prophetic. At a Congressional Briefing on 
November 10, 2005, according to Representative Jim Ramstad, Co-Chair of 
the Congressional Bipartisan Disability Caucus, ``Certainly, the 
disaster in the Gulf Coast region exposed the enormous gaps in the 
emergency planning preparedness and management for people with 
disabilities. . . .In a truly remarkable show of foresight, the 
National Council on Disability (NCD) released a report last April 
outlining steps that the federal government should take to include 
people with disabilities in emergency preparedness, disaster relief, 
and homeland security.''
    Saving Lives provided examples of emergency preparation and 
disaster relief efforts that work. It provided an overview of steps the 
Federal Government must take to include people with disabilities in 
America's emergency preparedness, disaster relief, and homeland 
security programs. These steps involve access to technology, physical 
plants, programs, and communications, procurement and emergency 
programs and services.
    Subsequent events also have contributed to NCD's ongoing interest 
and concern, including: the recent energy blackouts in the U.S. 
Northeast and Midwest, the Asian tsunami of December 26, 2004, and the 
hurricane disasters of 2005 in the Gulf Coast. The Kaiser Family 
Foundation took a poll of people from New Orleans who were evacuated to 
the Astrodome, asking, ``Which of these was the biggest reason you did 
not leave (New Orleans earlier)?'' 22 percent of the respondents said, 
``I was physically unable to leave.'' In addition, 23 percent said, ``I 
had to care for someone who was unable to leave.'' Together this makes 
45 percent of the people who did not leave New Orleans early due to 
disability-related reasons.
    Also of note, in April of 2004, the California State Independent 
Living Council delivered a report to Governor Schwarzenegger detailing 
the treatment of people with disabilities during the 2003 firestorms. 
That report indicated that many of California's 19 percent of persons 
with disabilities were unable to evacuate themselves because of poor 
notification methods. In March 2005, newspapers in Virginia and 
Maryland reported on concerns raised by parents and students about 
public school systems' use of strategies to determine whether to 
evacuate or not evacuate students during fire emergency situations. 
Additionally, a March 2005 Fire Chief article describes a survey of 30 
cities/counties where natural or man-made disasters occurred between 
1999 and 2004. The survey revealed that emergency managers still don't 
have a good handle on where people with disabilities are, and how to 
find ways to rescue and then accommodate them when they get to a place 
of safety.
    All of these natural and man-made disasters underscore the need to 
maintain a critical focus on improving the quality of our nation's 
homeland security, emergency preparedness and disaster relief systems 
and efforts, at all levels, and for all people.

II. Key Issues
    Based on NCD's own research over the past 3 years in the area of 
homeland security, as well as Congressional and Executive Branch 
investigations, NCD identified a number of key issues as critical and 
related to people with disabilities. The key issues are as follows:
        <bullet> People with disabilities frequently encounter barriers 
        to physical plants, communications, and programs in shelters 
        and recovery centers and in other facilities or with devices 
        used in connection with disaster operations such as first aid 
        stations, mass feeding areas, portable payphone stations, 
        portable toilets, and temporary housing.
        <bullet> Many of these barriers are not new. Information and 
        lessons learned are not shared across agency lines, and thus 
        experience does not enlighten the development of new practices.
        <bullet> Many accessibility lessons learned during previous 
        disasters are not incorporated in subsequent planning, 
        preparedness, response, and recovery activities.
        <bullet> People with disabilities are too often left out of 
        preparedness and planning activities. These activities include 
        analyzing and documenting the possibility of an emergency or 
        disaster and the potential consequences or impacts on life and/
        or property.
        <bullet> Disaster preparedness and response systems are usually 
        designed for people without disabilities, for whom escape or 
        rescue involves walking, running, driving, seeing, hearing, and 
        responding quickly to instructions and evacuation 
        announcements.
        <bullet> Access to emergency public warnings, as well as 
        preparedness and mitigation information and materials, does not 
        adequately include people who cannot depend on sight and 
        hearing to receive their information.
        <bullet> The strengths and skills of community-based 
        organizations (CBOs) serving people with disabilities are not 
        well integrated into the emergency service plans and strategies 
        of local government. Emergency managers need to strengthen 
        their relationships with these organizations by recruiting, 
        encouraging, and providing funding and incentives to CBOs so 
        that they can participate and assist in disaster preparedness 
        and relief.

III. How Have We Responded, As A Nation, to These Key Issues?
    Over the past several years, there has been much work that 
government at all levels--as well as private sector entities--has 
undertaken: such as attempting to strengthen the nation's emergency 
preparedness system, emergency communications infrastructure (e.g., the 
emergency alert system and all-hazard warnings), and public safety 
communications networks, to name just a few examples.
    Not surprisingly, over the past three years, federal policymakers 
have used NCD's research and input and lessons learned to design 
promising solutions. In addition, and as a result of Congressional 
hearings and Executive Branch evaluations of America's response to 
Katrina and Rita, a specific set of legislated federal policy and 
organizational changes that will affect Americans with disabilities 
have been made.
    For example, a number of critical changes were enumerated in the 
Homeland Security Appropriations bill (H.R. 5441) signed by President 
Bush on October 4, 2006. Some of the more notable changes targeted to 
Americans with disabilities are that the Administrator of the Federal 
Emergency Management Agency (FEMA):
        1. Will appoint a Disability Coordinator who will assess the 
        coordination of emergency management policies and practices;
        2. Will interact with stakeholders regarding emergency planning 
        requirements and relief efforts in case of disaster;
        3. Will revise and update guidelines for government disaster 
        emergency preparedness;
        4. Will carry out and will test or evaluate a national training 
        program to implement the national preparedness goal, National 
        Incident Management System, and National Response Plan;
        5. Will assess the Nation's prevention capabilities and overall 
        preparedness, including operational readiness;
        6. Will identify and share best practices, after-action reports 
        to participants, and conduct long-term trend analysis;
        7. Will coordinate and maintain a National Disaster Housing 
        Strategy;
        8. Will develop accessibility guidelines for communications and 
        programs in shelters and recovery centers;
        9. Will set up evacuations standards and requirements, and help 
        all levels of government in the planning of evacuation 
        facilities that house people with disabilities.
    A few critical changes were also recently introduced as a result of 
the Pets Evacuation and Transportation Standards Act of 2006 (PETS 
Act). The PETS Act requires FEMA to ensure that state and local 
emergency preparedness operational and evacuation plans take into 
account the needs of individuals with household pets and service 
animals before, during, and after a major disaster or emergency.
    The challenges faced by people with disabilities--and their 
governments--during and after the Hurricanes, while unique in scope and 
proportion, were similar to the challenges people with disabilities 
face on a day-to-day basis. Our nation must continue to build on its 
commitment to creating a critical infrastructure that incorporates 
access to emergency programs and services and includes physical, 
program, communication, and technological access for people with 
disabilities. When America embraces the twin principles of inclusion 
and accessibility for everyday programs, policies, and infrastructure, 
Americans with disabilities surely will be counted among the survivors 
of the next disasters.

IV. Additional Information and Recommendations from NCD's Saving Lives 
Report
A. From the Executive Summary
    I would like to bring the following information from the Executive 
Summary of the Saving Lives report (http://www.ncd.gov/newsroom/
publications/2005/saving_lives.htm#executive) to the attention of the 
Subcommittee.
    The decisions the Federal Government makes, the priority it accords 
civil rights, and the methods it adopts to ensure uniformity in the 
ways agencies handle their disability-related responsibilities are 
likely to be established in the early days of an emergency situation 
and be difficult to change if not set on the right course at the 
outset. By way of the Saving Lives report, NCD offers advice to help 
the Federal Government establish policies and practices in these areas. 
The report also gives examples of community efforts to take account of 
the needs of people with disabilities, but by no means does it provide 
a comprehensive treatment of the emergency preparedness, disaster 
relief, or homeland security program efforts by state and local 
governments.
    This report provides an overview of steps the Federal Government 
should take to build a solid and resilient infrastructure that will 
enable the government to include the diverse populations of people with 
disabilities in emergency preparedness, disaster relief, and homeland 
security programs. This infrastructure incorporates access to 
technology, physical plants, programs, and communications. It also 
includes procurement and emergency programs and services.
    The report's recommendations urge the Federal Government to 
influence its state and local government partners, as well as 
community-based partners, to assume major roles in implementing key 
recommendations.

Who Are People with Disabilities?
    Individuals with disabilities make up a sizable portion of the 
general population of the United States. According to the U.S. Census 
of 2000, they represent 19.3 percent of the 257.2 million people ages 5 
and older in the civilian noninstitutionalized population, or nearly 
one person in five.
    In disaster management activities it is important to think about 
disability broadly. Traditional narrow definitions of disability are 
not appropriate. The term disability does not apply just to people 
whose disabilities are noticeable, such as wheelchair users and people 
who are blind or deaf. The term also applies to people with heart 
disease, emotional or psychiatric conditions, arthritis, significant 
allergies, asthma, multiple chemical sensitivities, respiratory 
conditions, and some visual, hearing, and cognitive disabilities.
    Adopting a broad definition leaves no one behind, and the 
imperative is clear that emergency managers address the broad spectrum 
of disability and activity limitation issues. People with disabilities 
should be able to use the same services as do other residents of the 
community in which they live. Although they may need additional 
services, the emergency management system must work to build provisions 
for these services into its plans so that people with disabilities are 
not excluded from services available to the rest of the community. If 
planning does not embrace the value that everyone should survive, they 
will not.

B. Role of Community-Based Organizations (CBOs)
    In Part III of the Saving Lives report, NCD discusses the role of 
CBOs in effective emergency preparedness planning. (http://www.ncd.gov/
newsroom/publications/2005/saving_lives.htm#disasters)
    CBOs are local organizations (usually nonprofit) serving the needs 
of specific populations within the community. They represent a vast 
array of human and social service organizations, faith-based 
organizations, and neighborhood associations.

Experiences of CBOs in Disasters
    These are a few of many examples of the experiences of CBOs in 
disaster mitigation, preparedness, and response:
        <bullet> After Hurricane Andrew in Florida in 1991, no plans 
        existed for people with disabilities who use group homes, 
        residential programs, day programs, and other supportive 
        communities and environments to continue to receive the 
        assistance and services that were essential for their daily 
        living.
        <bullet> Service organizations lacked emergency plans that 
        would have enabled them to locate the people they work with and 
        inquire about their needs.
        <bullet> Group homes did not have plans for emergency housing 
        of residents, with the result that some people were 
        reinstitutionalized.
        <bullet> There were few disability-specific agencies to pitch 
        in and help the affected areas.
        <bullet> After the 1997 Minnesota Red River flood, many people 
        with disabilities were displaced from their homes. Finding no 
        housing and other resources to meet their needs, people in 
        Grand Forks and East Grand Forks had to band together with CBOs 
        to find ways to meet individual needs and design a recovery 
        plan.

Networking with Other CBOs and Government Emergency Response Agencies
    On 9/11 the executive director of CIDNY (the Center for 
Independence of the Disabled, New York) watched the World Trade Towers 
collapse. ``An act of war happened down the street from us!'' CIDNY was 
simply not prepared to handle a disaster of this magnitude. ``I think 
we were on the right track with everything we've been doing [beginning 
to plan for emergencies]. I wish we had been further along.''
    I wish we'd had a stronger relationship with all the other 
community-based agencies so we could coordinate efforts,'' CIDNY's 
executive director said. ``The time to build relationships is not in 
the middle of a crisis. I wish we'd paid more attention to efforts to 
include people with disabilities in disaster planning. I wish we'd had 
better mechanisms in place to get the word out that we exist and what 
we can do for people who need help.
    Before September 11, CIDNY had no relationship with the big 
players--FEMA, the Red Cross, and many other local, state, and federal 
assistance agencies. Now the big players realize that the independent 
living community has a responsibility to educate and work with these 
agencies on an ongoing basis.
    An important lesson these agencies learned after 9/11 was not to 
trust that the needs of their clients would be met by emergency 
management personnel during an emergency. Emergency personnel do not 
have the knowledge or the resources to provide all the necessary 
services to these populations. People with disabilities should not 
assume that emergency and relief agencies understand accessibility, 
accommodations, communication, transportation issues, or any other 
aspect of disability or independent living. If people with disabilities 
haven't worked to raise the awareness of emergency personnel before the 
emergency, people can plan to spend a lot of time educating them in the 
midst of the crisis.
    In the past, CIDNY had been invited to participate in various 
emergency preparedness meetings; but in the day-to-day reality of 
providing independent living services after 9/11, those meetings were 
not given much priority. That has changed now, and CIDNY hopes to build 
on the relationships and learning that have occurred since 9/11.

Individual Preparedness Plans for People with Disabilities
    CIDNY will also pay more attention to helping consumers develop 
personal emergency preparedness plans. The executive director explains, 
``We've come to know a lot of people who were doing their own things 
and had successfully created their own support networks. When their 
support systems crumbled,'' as they so dramatically did, ``many still 
thought they could work things out themselves. But as things dragged 
on, they found they needed assistance.''

Funding
    Federal and state legislation is often a major obstacle because it 
is not geared toward emergency response. Social services agencies often 
are reluctant to take on added responsibility during a disaster because 
spending additional money may leave them unable to provide basic 
services to their clients for the rest of the fiscal year. Private 
nonprofit organizations and private for-profit organizations are not 
eligible for reimbursement from federal disaster funds unless they are 
mandated or identified before a disaster by a local or state agency to 
have specific disaster responsibilities.
    CIDNY's first attempts to get the attention of FEMA and the Red 
Cross were hampered by the general lack of understanding about the 
diverse, and sometimes complex, needs of people with disabilities. The 
funding organization was finally convinced after CIDNY submitted a 
grant application explicitly detailing real-life examples of the 
problems people are facing and the center for independent living's 
unique capability to understand and help resolve those problems.
    Shortly after 9/11, CIDNY staff and volunteers started a log to 
track the multitude of contacts and requests for assistance. This is a 
sampling of log notations from November 5, 2001. It is a chronicle of 
the diverse ways people with disabilities were affected when New York 
City's complex system of services and supports collapsed in the 
aftermath of the attack on the World Trade Center.
        <bullet> . . .young architect has multiple sclerosis. . .uses a 
        scooter that he had to leave behind. . went to parents' home. . 
        .60-year-old father carrying him up and down stairs daily. . .
        <bullet> . . .has CP. . .uses walker. . .was told he would have 
        to walk from Brooklyn Bridge or Canal Street to his school. . .
        <bullet> . . .had to stay in the hospital because there was no 
        way to get back and forth for dialysis. . .
        <bullet> . . .21-year-old woman with significant traumatic 
        brain injury. . .witnessed WTC collapse and is traumatized. . 
        .has no food/income. . .is scared and highly vulnerable. . .
        <bullet> . . .claims she has made 36 trips to four different 
        Red Cross centers. . .
        <bullet> . . .consumer with lung and brain cancer was displaced 
        from her home. . .currently staying in hotel. . .needs 
        transportation to her medical appointment next week. . .

Recognizing the Value and Talent of CBOs in Disaster Activities
    Although local, state, regional, and federal government agencies 
play a major role in disaster planning and response, traditional 
government response agencies are often ill-equipped to respond to the 
needs of vulnerable populations. The traditional response and recovery 
systems often are unable to satisfy many human needs successfully. The 
usual approach to delivering emergency services does not always provide 
the essential services for segments of the population.
    It is critical for emergency preparedness and response plans to 
address and accommodate all individuals, including vulnerable 
populations. Numerous agencies and organizations exist that have 
extensive knowledge and expertise on the needs of these populations. 
CBOs are often a part of naturally occurring local networks, which are 
powerful support tools.
    CBOs have unique and credible connections with--and expertise in 
delivering services to--people with disabilities and activity 
limitations. This unique know-how and understanding can be a valuable 
resource during planning, preparedness, response, recovery, and 
mitigation activities. CBOs should be included as partners in working 
with local, state, regional, and federal public and private response 
agencies to deal more effectively with and understand the needs, 
geography, demographics, and resources of their local areas.
    Emergency managers generally have little knowledge about the needs 
of people with disabilities. ``To effectively provide services to these 
populations and meet the requirements for accommodations under ADA, 
emergency managers must understand the needs of these groups, the 
social services mechanisms that are in place to serve them, and how to 
work with social service agencies to integrate these mechanisms into 
emergency planning.''
    The social services network for people with disabilities is based 
on categorical needs and therefore is fragmented. As a result, it is 
not easy to make this network fit into a network to provide general 
services. No single specific-needs system exists, and agencies that 
provide services to a particular group of people often are unaware of 
agencies with similar missions for other groups.
    Disability-specific CBOs often:
        <bullet> Are able to assist in preparedness planning and 
        disaster assistance because they know and can protect best the 
        specific interests and needs of groups that they assist on a 
        daily basis.
        <bullet> Know best how to reach out to the populations they 
        assist.
        <bullet> Have the most current records.
        <bullet> Are accessible in terms of design and layout of 
        facilities, environmental needs such as indoor air quality and 
        temperature, and communication--the way information is 
        delivered through signage, technology, interpersonal exchanges, 
        sign language interpreters, picture books for people with 
        cognitive disabilities, and materials in alternative formats 
        (e.g., Braille, large print, disks, audio cassettes).
        <bullet> Are able to distribute supplies and administer 
        emergency aid.
        <bullet> Can serve as satellite distribution sites to provide 
        alternatives, for some individuals, to traditional shelters.
        <bullet> Because effective disaster response always takes place 
        locally, the challenge for emergency management professionals 
        is to integrate the CBOs' skill and knowledge into the 
        emergency service plans and strategy, and connect them to local 
        government. Emergency managers need to recognize, recruit, 
        encourage, and provide funding and incentives so that CBOs can 
        participate in disaster preparedness and relief.
    Working with CBOs as partners in disaster response and relief does 
not relieve government responsibility. It augments government efforts 
and forms a critical partnership with the community. The Department of 
Homeland Security (DHS) should value and offer funding and other 
incentives to encourage CBOs to become involved in disaster activities.
    CBOs can do the following:
        <bullet> Develop organization disaster plans that include 
        information about how CBOs can survive a disaster and continue 
        to serve people.
        <bullet> Participate in Community Emergency Response Teams and 
        Citizen Corps.
        <bullet> Participate in cross-training with disaster response 
        personnel and disability-specific organizations personnel so 
        both groups gain a better understanding of each other's 
        expertise and roles and can plan together for a coordinated 
        response.
        <bullet> Assist the people they support in developing 
        individual and family preparedness and mitigation plans.
        <bullet> Preestablish contracts so that CBOs are not encumbered 
        by procedural delays. Such contracts would allow emergency 
        response funds--from local, state, regional, and Federal 
        Government agencies as well as foundations and corporations--to 
        be immediately appropriated and used. This would allow for 
        quick deployment of disability-specific relief services. For 
        example, relocation to shelters might not be needed if such 
        backup services were available. Provision through contracts for 
        backup electrical units, such as standalone or portable 
        generators to reactivate or recharge assistive devices, 
        elevators, and appliances, can alleviate overcrowding at 
        shelters and help people with disabilities remain in their home 
        or communities in potentially safer and more accessible 
        environments.
    CBOs have an important role to play in helping develop and 
implement state and local emergency plans, to help communities prepare 
and respond to natural and man-made disasters.

V. Emergency Preparedness Issues and Disaster Planning for People with 
Mental Health Issues
    In July of 2006, NCD released The Needs of People with Psychiatric 
Disabilities During and After Hurricanes Katrina and Rita: Position 
Paper and Recommendations (http://www.ncd.gov/newsroom/publications/
2006/peopleneeds.htm), which examined the aftermath of Hurricanes 
Katrina and Rita, and the emotional as well as physical toll these 
storms wreaked on residents of the Gulf Coast region, and on hurricane 
survivors with mental health needs, in particular.
    For hurricane survivors with psychiatric disabilities, the 
hurricanes' destruction resulted in ``trauma that didn't last 24 hours, 
then go away. . . . It goes on and on.'' Some of these challenges were 
unavoidable. As one government official said, ``No one ever planned for 
`what happens when your social service infrastructure is completely 
wiped out.' '' Nonetheless, many of the problems could have been 
avoided with proper planning. As NCD predicted in its 2005 report, 
Saving Lives, ``[i]f planning does not embrace the value that everyone 
should survive, they will not.''

Major Recommendations

Nondiscrimination in the Administration of Emergency Services
    The federal National Response Plan and state and local emergency 
plans should require that services and shelters be accessible to people 
with disabilities, including people with psychiatric disabilities (who 
live independently or in congregate living situations such as 
hospitals, group homes, or assisted living), in compliance with the 
Americans with Disabilities Act and Section 504 of the Rehabilitation 
Act. State plans should be reviewed by independent disability experts 
familiar with that state.

Plans for the Evacuation of People with Psychiatric Disabilities
    Evacuation planners should have a plan that (a) tracks the transfer 
of residents of group homes and psychiatric facilities; (b) maintains 
contact between people with psychiatric disabilities and their family 
members and caretakers; (c) helps facilitate the return of evacuees to 
their homes; (d) ensures that sites that receive evacuees are equipped 
to meet the needs of people with psychiatric disabilities; and (e) 
prevents the inappropriate institutionalization of evacuees with 
psychiatric disabilities.

Inclusion of People with Psychiatric Disabilities in Emergency Planning
    People with psychiatric disabilities must be involved at every 
stage of disaster and evacuation planning and with the administration 
of relief and recovery efforts. Communities should develop interagency, 
multi-level disaster planning coalitions that include people with 
disabilities.

Person or Office Responsible for Disability Issues During Disasters
    A single person or office must be responsible, accountable and able 
to make decisions related to disability issues. This person or office 
would be responsible for training first responders and organizing 
disability-specific evacuation, relief and recovery efforts. This 
person or office would also serve as a communication link between 
people with disabilities and the respective local, state or federal 
government.

Disaster Relief Should Continue for at least Two Years After the 
Disaster
    Relief and recovery efforts should continue for at least two years 
from the date of the disaster, including Medicaid waivers, HUD housing 
waivers, and FEMA housing for people with disabilities. Disasters often 
result in long-term psychiatric consequences for people, and in some 
cases, the traumatic impact of the disaster does not manifest itself 
until many months or years later. Additionally, the social service 
infrastructure in some locations was utterly wiped out. Emergency 
planners should ensure treatment continuity by planning for relief 
services to be available for at least two years after the disaster.

VI. Additional Recommendations
    In August of 2006, NCD released The Impact of Hurricanes Katrina 
and Rita on People with Disabilities: A Look Back and Remaining 
Challenges (http://www.ncd.gov/newsroom/publications/2006/
hurricanes_impact.htm#preparedness). The paper revisited the effects of 
Hurricanes Katrina and Rita on the lives of people who lived in the 
Gulf Coast region.

Recommendations for Emergency Preparedness
    In conjunction with the recommendations delineated in NCD's Saving 
Lives report and other pertinent NCD reports on inclusive 
transportation and community design, including the 2006 National 
Disability Policy: A Progress Report, (http://www.ncd.gov/newsroom/
publications/2006/progress_report.htm) NCD made the following 
recommendations:
        <bullet> Congress should amend the Stafford Act to increase the 
        funds or loan amounts that are available to hurricane victims 
        who rebuild their homes according to accessibility standards, 
        e.g. S. 2124, H.R. 4704 (109th Congress).
        <bullet> Congress should establish an office or person within 
        DHS who is solely responsible for disability issues and who 
        reports directly to the Secretary, e.g. S. 2124, H.R. 4704 
        (109th Congress).
        <bullet> Congress should waive the Medicaid citizenship 
        documentation requirement for hurricane survivors.
        <bullet> Congress should adopt the principles embodied in 
        Livable Communities to guide the provision of reconstruction 
        funds, promoting a Gulf Coast that includes:
                <bullet> Affordable, appropriate, accessible housing
                <bullet> Accessible, affordable, reliable, safe 
                transportation
                <bullet> Physical environments adjusted for 
                inclusiveness and accessibility
                <bullet> Work, volunteer, and education opportunities
                <bullet> Access to key health and support services
                <bullet> Access to civic, cultural, social, and 
                recreational activities
        <bullet> Congress should require the inclusion of people with 
        disabilities in the creation of the National Response Plan, 
        e.g. RESPOND Act (H.R. 5316, 109th Congress) that would require 
        NCD to review and revise the National Response Plan.
        <bullet> Congress should consider how the National Disaster 
        Medical Systems may be expanded or modified to include the 
        critical evacuation needs of nursing home residents.
        <bullet> Congress should consider how nursing home 
        accreditation programs, e.g. Medicaid and Medicare or the Joint 
        Commission on Accreditation of Healthcare Organizations could 
        be strengthened to ensure the evacuation of people in nursing 
        homes in times of emergency.
        <bullet> Congress should review all emergency planning 
        mechanisms with a view to incorporating procedural and outreach 
        provisions aimed at guaranteeing timely participation in 
        preparedness planning by individuals with disabilities and 
        groups representing them, and so as to maximize the 
        responsiveness of plans, emergency services and emergency 
        response practices to the issues facing these citizens. 
        Congress should also provide for monitoring of the 
        effectiveness of these procedures, so that any lack of timely 
        and effective input can be quickly identified and remedied. 
        Persons with disabilities should play a leading role in this 
        monitoring.

Communities and City Governments
        <bullet> Establish voluntary self-registries to facilitate the 
        provision of emergency services people with disabilities, such 
        as evacuation.
        <bullet> Include people with disabilities in emergency planning 
        at all levels.
        <bullet> Ensure that emergency plans are well coordinated among 
        other state, federal and non-governmental entities.
        <bullet> Develop a communications plan to ensure that people 
        with disabilities are familiar with local emergency 
        preparedness plans.
        <bullet> Establish an office or person who is solely 
        responsible for disability issues.

Non-Profit and Community Based Organizations
        <bullet> The American Red Cross should establish an office or 
        person responsible solely for disability issues who reports 
        directly to the Red Cross CEO.
        <bullet> The American Red Cross should ensure that shelters and 
        other emergency services are compliant with the ADA and 
        Sections 504 and 508 of the Rehabilitation Act. NCD recognizes 
        that the American Red Cross does not have the licensure to meet 
        the needs of ``individuals who require care in an 
        institutionalized setting,'' but the ``reality is that people 
        with special needs will show up at public shelters. . . the 
        American Red Cross needs to be prepared to assist these 
        individuals until they can be moved somewhere else'' and cannot 
        avoid the legal responsibility to admit people who do not 
        require care in an institutionalized setting.
    The American Red Cross should continue to improve its volunteer 
training programs to ensure that shelter staff is familiar with 
disability issues.
        <bullet> Community based organizations that wish to donate 
        resources, e.g. wheelchairs and medical supplies, to disaster 
        stricken areas, should coordinate with federal agencies and 
        national organizations to distribute supplies in an efficient 
        manner.
    In conclusion, NCD wishes to highlight two key recommendations from 
the 2005 Saving Lives report and the 2006 update, A Look Back. First, 
people with disabilities, including psychiatric disabilities, must be 
included in emergency planning and in relief efforts. Emergency 
management planners should not merely plan about people with 
disabilities; rather they must plan with people with disabilities. 
Second, emergency management planners at the local, state and federal 
levels must remember that federal laws and policies require that 
emergency services be administered in a nondiscriminatory fashion. The 
ADA and Section 504 require evacuation services and emergency shelters 
to be accessible to people with disabilities. Congress and the 
President should ensure that federal funds are used only for 
nondiscriminatory emergency services and relief and recovery efforts. 
As we plan to ensure that all people, regardless of disability, survive 
catastrophes such as Hurricanes Katrina and Rita, we will incorporate 
the principles of inclusion and nondiscrimination into our national 
consciousness.
    Thank you for the opportunity to speak to the House Committee on 
Homeland Security's Subcommittee on Emergency Communications 
Preparedness and Response on this important subject.

    Mr. Cuellar. Thank you, Mr. Hill.
    At this time I would recognize Ms. Chapline to summarize 
your statement for 5 minutes.

  STATEMENT OF REGINA CHAPLINE, TEXAS CITIZEN CORPS MANAGER, 
             TEXAS ASSOCIATION OF REGIONAL COUNCILS

    Ms. Chapline. Good morning. Thank you.
    I wanted to tell you a little bit about Citizen Corps, and 
this is a program that I work on every day in my state. This 
program, as you are aware, was created in response to the 
September 11th attack, and it sought to engage Americans to 
help make our nation's communities safer, stronger and better 
prepared.
    This program drives local citizen participation in 
emergency and community preparedness response and volunteer 
service. Citizen Corps answers the question that every citizen 
has: How can I help? And by providing local opportunities for 
every citizen to prepare, train and volunteer, that question is 
answered.
    The successes of the Citizen Corps program are many. In 
2004, if you will recall, hurricanes Frances and Ivan destroyed 
a significant amount of our eastern seaboard. During that time 
there were more than 2,600 Citizen Corps volunteers at the 
Citizen Corps office who worked with the Federal Emergency 
Management Agency to deploy those volunteers up and down the 
eastern seaboard. They provided damage assessments. They 
provided numerous other forms of community service.
    The largest utilization of Texas Citizen Corps volunteers 
occurred in 2005 in the aftermath of hurricanes Katrina and 
Rita. Over 6,500 Citizen Corps volunteers from across the state 
worked in the hundreds of shelters that went up across Texas. 
Many of those volunteers worked in the Astrodome in Houston 
under the leadership of then Harris County Judge Robert Eckles, 
and as a result the Harris County Citizen Corps coordinator was 
even named ABC News Person of the Week.
    There were 3,000 Citizen Corps volunteers at minimum that 
worked at the Astrodome, and they processed over 60,000 
spontaneous volunteers who wanted to help at the Astrodome. 
Citizen Corps volunteers coordinated volunteer assignments and 
managed volunteer shifts until the Astrodome closed.
    In rural communities across our nation, Citizen Corps 
volunteers have been used in many different capacities. They 
assisted many different first responders during 2006 when the 
wildfires burned up hundreds of thousands of acres across our 
country. There were many other ways that they were able to 
assist first responders. They assisted in warning citizens of 
evacuations and in numerous other ways.
    Citizen Corps volunteers have also assisted in searches for 
missing people and flood victims. They have also assessed 
damage caused by storms and provided invaluable assistance to 
citizens and jurisdictions in numerous ways.
    Citizen Corps training and information is offered 
nationally in English and Spanish. In the local jurisdictions 
we have higher concentrations of different nationalities that 
have been able to reproduce that information and offer both 
information and training to many different citizens of many 
different nationalities.
    If we were to calculate the return on investment for this 
program, I would ask you to think of this. The value of one 
volunteer hour in Texas is $18.20. If we were to assume that 
the 6,500 Citizen Corps volunteers worked at least two 8-hour 
shifts--and I know that they worked a lot more than that--that 
value would be over $1.8 million. And that was more money than 
was allocated to the Texas Citizen Corps program that year.
    Along other lines, we are also looking to involve some of 
our Citizen Corps volunteers in the fight for border security, 
and we look forward to implementing those plans very soon.
    The Citizen Corps program is also very interested in school 
safety in response to a lot of the recent disasters. As a 
result, the Teen CERT program--the Teen Community Emergency 
Response Team--curriculum was nationally approved and is being 
implemented in many states across our nation.
    In order to ensure that these goals and these objectives 
are achieved for the entire Citizen Corps program, we must turn 
to Congress for continued support of these programs through 
proper funding appropriations.
    This concludes my testimony. Thank you very much for the 
incredible honor of being before you today, and I look forward 
to answering any questions that you may have.
    [The statement of Ms. Chapline follows:]

                 Prepared Statement of Regina Chapline

    Mr. Chairman and members of the Committee:
    My name is Regina Chapline, and I am pleased to be here this 
morning to discuss the Citizen Corps Program.
    My testimony will focus on (1) the accomplishments and impact of 
the Citizen Corps Program, and (2) future challenges in maintaining and 
improving the Citizen Corps Program.
    The program was created in response to the 9/11 terrorist attacks, 
and sought to engage Americans to help make our nation's communities 
safer, stronger, and better prepared to respond to terrorism and 
natural disasters. This program drives local citizen participation in 
emergency and community preparedness, response, and volunteer service. 
Citizen Corps answers the essential question of every citizen: ``How 
can I help?'' by providing local opportunities for every citizen to 
prepare, train, and volunteer. By partnering with their community's 
emergency service providers, citizens participate in making themselves 
and their communities safer.
    The programs under Citizen Corps are:
Community Emergency Response Teams (CERT) provides education and 
training to citizens in basic disaster response skills;
Fire Corps promotes the use of citizen advocates to provide support to 
fire and rescue departments;
Medical Reserve Corps, helps medical, public health and other medical 
volunteers offer their expertise;
Neighborhood/USA On Watch incorporates terrorism awareness education 
into its existing crime prevention mission;
Volunteers In Police Service works to enhance the capacity of state and 
local law enforcement by utilizing volunteers.
    The successes of the Citizen Corps Program are many. In response to 
Hurricanes Frances and Ivan in 2004, the national Citizen Corps Office 
worked with the Federal Emergency Management Agency for the first ever 
nationwide deployment of Citizen Corps volunteers. More than 2,600 
Citizen Corps volunteers responded and worked across the eastern sea 
board to provide victim relief, damage assessments, and many other 
services. Citizen Corps has traditionally been a grassroots, local 
movement. This nationwide activation of Citizen Corps members expanded 
the mission of Citizen Corps from a locally-based program to a national 
resource. By tapping Citizen Corps Members who have received first aid 
or disaster response training and who volunteer in their communities, 
the state and federal response systems gain an additional response 
resource for large scale disasters.
    The largest utilization of Texas Citizen Corps volunteers was in 
2005, in the aftermath of Hurricanes Katrina and Rita. Over 250 
shelters were in operation during that time all across Texas, and over 
6,500 Citizen Corps volunteers worked in those shelters. Many worked in 
the Astrodome in Houston, under the leadership of then Harris County 
Judge Robert Eckels, and as a result, the Harris County Citizen Corps 
Volunteer Coordinator was named ABC News Person of the Week. 3,000 
Citizen Corps Volunteers processed the 60,000 spontaneous volunteers 
who came to the Astrodome to help. Citizen Corps Volunteers coordinated 
volunteer assignments and managed volunteer shifts until the Astrodome 
closed.
    In rural communities across the nation, Citizen Corps Volunteers 
have been used in different capacities. During the 2006 wildfires that 
burned hundreds of thousands of acres across the United States, Citizen 
Corps volunteers worked with the Forest Service and many other first 
responder agencies to notify citizens of imminent evacuations, while 
other volunteers provided rehabilitation to firefighters who had been 
fighting fires for hours, worked in temporary shelters and provided 
information to the public regarding road closures. Citizen Corps 
volunteers have assisted in searches for missing people and flood 
victims, assessed damage caused by storms, and provided invaluable 
assistance to citizens and jurisdictions in numerous other ways. They 
continue to train and to prepare on an ongoing basis, and always work 
at the direction of local first responders.
    In Texas, the Governor's Office of Homeland Security decided that 
the Governor's Planning Regions, (regional councils of government or 
COGs) would be utilized to quickly and effectively plan and administer 
all Homeland Security funds, including Citizen Corps. Today, the 
Governor's Division of Emergency Management, with the help of the 24 
regional councils of government, administer all Homeland Security 
planning funds for local jurisdictions across our state on a regional 
basis.
    Nationally, there are approximately 2,196 Citizen Corps Councils, 
2,667 Community Emergency Response Teams (CERT), 629 Fire Corps 
programs, 667 Medical Reserve Corps programs, 14,791 Neighborhood Watch 
programs, 1,556 Volunteers in Police Service programs and 25 Affiliate 
Programs.
    Citizen Corps training and information is offered nationally in 
both English and Spanish. Local jurisdictions with high concentrations 
of other nationalities have developed preparedness materials and 
training in many different languages.
    Local jurisdictions have also been able to effectively leverage the 
resources in their own communities through the various Citizen Corps 
programs. Many programs have been successful in working with Community 
Services for the Deaf and Hearing Impaired population, and are planning 
training exclusively for deaf and hearing impaired later this fall. 
They also have trained people from the low socio economic areas.
    To calculate the return on investment for this program, think of 
this: The value of one volunteer hour in Texas is $18.20. Assuming that 
each of the 6,500 Citizen Corps Volunteers worked two eight-hour shifts 
in a shelter, it would total $1,892,800. This is more than the federal 
Citizen Corps Allocation to Texas for an entire year.
    In 2005, the Office of the Governor released our state's Homeland 
Security Strategic Plan. The goals of this plan are aligned with the 
National Response Plan, as developed by the Department of Homeland 
Security, but have been tailored for Texas. The state is prepared to 
utilize all resources, including Citizen Corps volunteers, in fighting 
terrorism by securing our borders. The utilization of Citizen Corps 
volunteers is outlined in the following Objectives and Priority Actions 
listed in the Texas Statewide Strategic Plan:
        <bullet> Strategic Objective 1.3: Prevent terrorists from 
        exploiting the Texas Mexico Border;
        <bullet> Priority Action 1.3.4: Work with local law enforcement 
        leaders along the Texas-Mexico Border to expand the 
        Neighborhood Watch, Reserve Deputy, Reserve Police Officer, and 
        Citizen Academy programs along the border;
        <bullet> Strategic Objective 3.8: Increase citizen 
        participation in statewide preparedness efforts;
        <bullet> Priority Action 3.8.1: Expand the Texas Citizen Corps 
        be establishing and sustaining Citizen Corps Councils in each 
        of the Governor's 24 Council of Government Regions;
        <bullet> Priority Action 3.8.2: Develop and execute a state-
        level media and communications campaign to increase 
        participation in the Texas Citizen Corps;
        <bullet> Priority Action 3.8.3: Conduct regional train-the- 
        trainer classes to expand the capabilities of Citizen Corps and 
        Community Emergency Response Teams.
    The Citizen Corps Program is particularly concerned about school 
safety, in the wake of recent tragic incidents, and as a result, the 
TEEN CERT Curriculum, which was recently developed and nationally 
approved. The curriculum is being considered for use in cooperation 
with our secondary schools and universities.
    In order to ensure that these goals and objectives are achieved, we 
must turn to Congress for continued support of these programs through 
proper funding appropriations.
    This concludes my testimony. I appreciate your time and attention. 
I will be happy to respond to any questions you may have. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Cuellar. Again, thank you very much for your testimony.
    I now recognize Mr. Stittleburg to summarize your statement 
for 5 minutes.

  STATEMENT OF PHIL STITTLEBURG, CHAIRMAN, NATIONAL VOLUNTEER 
                          FIRE COUNCIL

    Mr. Stittleburg. Thank you, Mr. Chairman, for the 
opportunity to be here today.
    My name is Phil Stittleburg. I am chief of the LaFarge Fire 
Department and have spent the last 35 years of my life in the 
volunteer fire service. I chair the National Volunteer Fire 
Council, which represents the interests of in excess of one 
million volunteer firefighters and EMS personnel throughout our 
country.
    I want to speak today about Fire Corps, which is a program 
administered by the NVFC in partnership with the International 
Association of Fire Chiefs. It is a component, as you know, of 
Citizen Corps.
    9/11 ended many lives, and it certainly changed the lives 
of all who survived. It unified our nation in a way that rarely 
occurs, and it fostered a sense of patriotism and compassion. 
Arising from that, President Bush called on all Americans to 
donate either 2 years or 4,000 hours over their lifetime in 
service to others. And that led to the establishment of the USA 
Freedom Corps, which has a goal of fostering a culture of 
service, citizenship and responsibility.
    A component, of course, of Freedom Corps, is Citizen Corps, 
which is an effort to engage citizens and their communities to 
prevent, prepare for and respond to both manmade and natural 
disasters, as well as other emergencies.
    Citizen Corps then developed four partner programs--
USAonWatch, formerly Neighborhood Watch; Medical Reserve Corps; 
Community Emergency Response Teams, the CERT teams that we all 
know about; and Volunteers in Police Service--but it had missed 
one very important group, one very large component. It had 
missed the fire service.
    It is the fire service today that is facing many 
challenges. We have a continually expanding role, particularly 
since 9/11. There is more demand for services, a better quality 
of services, and an expectation that it all be done with less. 
That gap in Citizen Corps was filled in December 2004 when Fire 
Corps was launched.
    Fire Corps has the mission of increasing the capacity of 
volunteer, career and combination fire and EMS organizations 
through the use of community volunteers. These volunteers 
perform in what we call non-operational--that is non-
emergency--roles, which means they free up firefighters and EMS 
personnel to do things like keeping up their training, meeting 
their expanding roles, responding and providing other services.
    What do Fire Corps people do? Well, they perform a myriad 
of roles. It may be fire prevention, fundraising, canteen 
services at emergency scenes, vehicle maintenance, budgeting, 
accounting, administrative duties. In fact, the range of tasks 
that are performed by Fire Corps personnel are limited really 
only by the needs of the department and the bounds of one's 
imagination.
    And those citizens who volunteer likewise benefit not only, 
of course, from the very altruistic benefit of giving back to 
one's community, but also they gain a better understanding of 
the emergency services and in turn are better prepared for 
their own emergencies.
    Fire Corps has been a noteworthy success. In its 2.5 years 
in existence, it has achieved over 10,000 engaged community 
volunteers, and there are many success stories.
    Just to mention one, Johnson County Rural Fire District No. 
1 in Clarksville, Arkansas, in 2003 was spending about 30 
minutes a year on fire safety programs. Although it was trying 
to increase that, by 2005 it had still only gotten to 100 hours 
a year. When Fire Corps arrived, actually they were able to 
increase those program hours to 8,600 hours a year and 
developed a program that has been seen by we estimate as many 
as a million people. That is reflected in a 34 percent decrease 
in fire-related property loss, and all at little or no cost to 
the fire department.
    I believe I have time to mention one more, and that is to 
point out that Fire Corps is not just related to small 
communities. Mesa, Arizona, has a population of in excess of 
455,000 people. It established a Fire Corps program in 2005 and 
now has, I believe, about 148 community volunteers ranging in 
age from 18 to 89, and they donate more than 29,000 hours a 
year.
    Fire Corps fits the fires service wonderfully because it 
stresses volunteerism and teamwork, two qualities that we 
exercise on a routine basis. Citizen Corps, as you know, was 
founded by the administration and funded through 
appropriations, but it has never been separately authorized. 
Last year the Medical Reserve Corps, which, as you know, is 
part of Citizen Corps, was separately authorized. It is our 
suggestion that Citizen Corps be authorized, with a 
subauthorization for Fire Corps, which we believe would give 
Fire Corps an increased stature and also preserve unique 
characteristics of the fires service in that program.
    Thank you for the opportunity to address you.
    [The statement of Mr. Stittleburg follows:]

              Prepared Statement of Philip C. Stittleburg

    Chairman Cuellar, Ranking Member Dent and members of the 
Subcommittee, thank you for the opportunity to testify before you today 
to discuss the extremely important issue of Citizen Preparedness. My 
name is Philip C. Stittleburg and I am the Chief of the La Farge Fire 
Department in Wisconsin as well as the Chairman of the National 
Volunteer Fire Council (NVFC). My testimony today will focus on the 
Fire Corps program, which is administered by the NVFC and is a 
component of Citizen Corps.
    In the wake of the tragic events of September 11, 2001, the nation 
came together in a rare show of unified support and human compassion. 
Capitalizing on our need to support each other and our nation in these 
trying times, President Bush called upon every American to dedicate two 
years or 4,000 hours over the course of their lives to serving others. 
This call to action launched USA Freedom Corps, an effort to foster a 
culture of service, citizenship, and responsibility, building on the 
generous nature of the American people. As a component of USA Freedom 
Corps, Citizen Corps was also created as a national grassroots effort 
to involve citizens in helping their communities prevent, prepare for, 
and respond to natural and man-made disasters and other emergencies.
    Citizens have become increasingly important in making our nation 
and communities safer, stronger, and better prepared to respond to 
emergencies of all kinds. As a result, state and local government 
officials have increased opportunities for citizens to become an 
integral part of protecting the homeland and supporting emergency 
responders. Today, many of these opportunities are coordinated through 
Citizen Corps Councils and the five partner programs: USAon-Watch/
Neighborhood Watch, Volunteers in Police Service(VIPS), Medical Reserve 
Corps (MRC), Community Emergency Response Teams (CERT), and Fire Corps. 
Together, these programs provide volunteer opportunities for citizens 
and community members to support all aspects of emergency response.
    Fire and other emergency service departments across the nation are 
struggling with increasing demands for service coupled with inadequate 
funding. In addition to responding to fires and medical emergencies, 
firefighters and EMS personnel are called upon to respond to major 
disasters, both natural and manmade. In an effort to help departments 
face these increasing demands, Fire Corps was launched in December 
2004, making it the newest of the five partner programs under Citizen 
Corps.
    Administered by the National Volunteer Fire Council (NVFC) in 
partnership with the International Association of Fire Chiefs (IAFC), 
Fire Corps' mission is to increase the capacity of volunteer, career, 
and combination fire and EMS departments through the use of community 
volunteers. These volunteers help resource-constrained departments by 
performing non-operational or non-emergency roles, making departments 
better able to develop, implement, expand, and sustain programs and 
services that meet the needs of their communities. In fulfilling these 
roles, citizens allow their local firefighters and emergency medical 
personnel to focus their efforts on training for and responding to 
critical, life-threatening situations while also increasing the ability 
of the department to provide additional programs and services for the 
community it serves.
    Through Fire Corps, individuals across the country assist their 
local departments in a myriad of roles, including conducting fire 
prevention activities at the state and local levels, fundraising, 
providing canteen services (drinks and food) for emergency responders 
during lengthy incidents, maintaining emergency apparatus, performing 
administrative duties, and much more. The range of tasks citizens can 
perform is limited only by the needs of the department. In return, 
citizens gain an intimate understanding of the fire and emergency 
services and become better prepared to handle their own emergencies as 
well as those of their neighbors.
    In its short two and half year history, Fire Corps has grown to 
include hundreds of programs representing more than 10,000 engaged 
community volunteers across America, and the U.S. Territories. 
Together, these programs are greatly increasing the ability of our 
nation's fire service to provide, maintain, and increase services to 
those they serve. The successes of these programs are abundant and I'd 
like to share just a few of these success stories with you.
    In 2005, the Johnson County Rural Fire District 1 in Clarksville, 
Arkansas implemented a Fire Corps program by partnering with students 
from the local University of the Ozarks' Phi Beta Lamda organization. 
Today over 100 students assist this small rural department with their 
fire safety programming. With the help of the department's firefighters 
and Fire Corps members, the Johnson County RFD 1 increased the hours of 
its fire safety programming and activities from 30 minutes to 8,600 
hours a year between 2003 and 2006. Since the inception of its Fire 
Corps program, the group's efforts have reached nearly 1 million people 
on the local, state, and national levels with their important fire 
safety messages. Through these efforts, this small department has 
effected a dramatic 34% decrease in fire-related property loss. . .all 
at little to no cost to the department. This was made possible by Fire 
Corps.
    Fire Corps is helping fire/EMS departments and communities of all 
sizes. The Mesa Fire Department in Mesa, Arizona has also increased its 
ability to respond to emergencies of all kinds while providing more 
services to their community. Serving a population of over 455,151, the 
Mesa Fire Department launched their Fire Corps program in 2005. Today, 
148 community volunteers, ranging in age from 18 to 89 assist the 
department in conducting home safety checks for senior citizens, 
provide translation services so the department can reach out to its 
non-English speaking residents, and assist family members after the 
death of a loved one by providing emotional support and assisting them 
through the necessary processes. This valuable team also assists the 
department by responding to non-emergency incidents, such as providing 
individuals with disabled cars with transportation, resourcing, and 
other services. Such services are vital for the safety and well-being 
of a community, but can also take first responders away from their 
primary duties of fighting fires and responding to life-threatening 
emergencies. Through the more than 29,040 volunteer hours donated 
through Fire Corps each year, the Mesa Fire Department is able to 
accomplish all of its programming goals, keep its community safe, and 
still focus on life-threatening emergency situations. Again, this was 
made possible through Fire Corps.
    The Stayton Fire District located outside of Salem, Oregon launched 
its Fire Corps program in 2005 in an effort to carry on its commitment 
to providing outstanding service while saving lives and property. 
Today, the department's Fire Corps volunteers assist the department in 
fundraising, canteen and chaplain services, fire prevention and life 
safety education, and provide support for the department's Juvenile 
Firesetter Intervention program. The department's Fire Corps team also 
installed reflective address signs in rural areas of the 104-square-
mile district. These signs were needed to locate homes that were not 
well marked or addresses that were not visible at night. Through the 
efforts of the departments Fire Corps team, the department has been 
able improve their response time to these residents, increasing their 
ability to save lives and property.
    A program like Fire Corps that stresses volunteerism and teamwork 
is a perfect fit in the fire service where those values are prevalent. 
Prior to the creation of Fire Corps, Citizen Corps programs did not 
address the needs of the fire service, leaving out this crucial 
component of our nation's emergency services. In addition to addressing 
this critical need, one of the reasons that Fire Corps has been so 
successful is due to the guidance of the National Advisory Committee 
(NAC), which I sit on, which includes members of all the major national 
fire service organizations. The NAC's involvement ensures that Fire 
Corps meets the unique needs of the fire service.
    Citizen Corps was created by the administration and has been funded 
through appropriations, but has never been authorized. Last year, the 
Medical Reserve Corps, a Citizen Corps program, received a separate 
authorization. The NVFC believes that Congress should pass a Citizen 
Corps authorization that includes a sub-authorization for Fire Corps. 
The NVFC feels that a Congressional authorization would give this 
valuable program increased stature. Furthermore, the NVFC believes that 
a sub-authorization for Fire Corps is necessary to ensure that it 
retains its unique characteristics linking Citizen Corps efforts to the 
fire service.
    Thank you again for the opportunity to testify. I look forward to 
answering any questions that you might have.

    Mr. Cuellar. Thank you very much. Thank you for your 
testimony.
    At this time I now recognize Ms. Schneider to summarize her 
statement for 5 minutes, and welcome.

STATEMENT OF JOHANNA SCHNEIDER, EXECUTIVE DIRECTOR, PARNERSHIP 
                     FOR DISASTER RESPONSE

    Ms. Schneider. Thank you, and I would like to thank all the 
members of the committee for this opportunity.
    By way of background, the Business Roundtable is an 
association of chief executive officers of the leading U.S. 
companies. We have $4.5 trillion in annual revenues. We have 
over 10 million employees that we represent. Collectively, our 
members donate over $7 billion a year in philanthropic 
donations, and that represents approximately 60 percent of 
total giving.
    The Business Roundtable launched the Partnership for 
Disaster Response approximately 2 years ago, following the 
devastation of the Southeast Asian tsunami. Even though our 
companies contributed generously, our CEOs felt a need to 
create a more coordinated effort to prepare for and respond to 
catastrophic events.
    To that end, the partnership aims to capitalize on the many 
resources and the capabilities of the private sector to 
accelerate on the ground relief and recovery activities to help 
save lives.
    The partnership works to foster public-private 
collaborations to prepare for the health, social and economic 
burdens created by disasters in the United States and abroad. 
The partnership also works to ensure that the business 
community's response efforts address a community's most 
critical needs by mobilizing the unique and diverse assets of 
our member companies.
    As you know, the U.S. private sector owns and operates 
nearly 85 percent of the nation's critical infrastructure and 
thus has a myriad of resources of value in preparing to and 
responding to disasters. These range from basic necessities 
such as food and drinking water to communications and energy 
networks, as well as logistics and technical expertise.
    Business Roundtable member companies contributed more than 
$550 million following the Asian tsunami, Hurricane Katrina and 
Rita and Wilma, in addition to the South Asian earthquake in 
Pakistan.
    In addition to quickly responding to these disasters with 
money and products, we feel that there is an important role for 
us to play in public education surrounding disasters. As major 
employers, our companies can be important vehicles for 
communicating preparedness. If our employees and their families 
are equipped with the appropriate information and tools to 
protect themselves and their families in the event of a 
disaster, our communities will be better prepared.
    First and foremost, the partnership serves as a valuable 
resource. One year ago we launched a Web site, 
www.respondtodisaster.org, which is the first, that we know of, 
comprehensive clearinghouse of information to help the business 
community, both large and small, prepare for and respond to 
disasters.
    This Web site, which I would urge you to go on, is 
literally a one stop shop for information and valuable tools 
for companies of all size. It includes company best practices 
on disaster preparedness, guidance for employee volunteers and 
matching gift programs to respond quickly in the event of a 
disaster, information on human resources and human resource 
benefits and financial issues, as well as strategies for 
tracking employees during a disaster--very important--and 
information on relief agencies and how best to support their 
work.
    We have developed a series of guides, which I believe each 
member of the committee has, and I would urge you to take a 
look at those. They are all filled with valuable information. 
For instance, we have just released a family preparedness guide 
to all of our 160-member companies, who are then releasing it 
to our 10 million employees. We have 35 million people that we 
represent in terms of our employees and their families.
    This guide identifies crucial actions that families can 
take: where to meet following a disaster, updating emergency 
contact information, protecting vital records, reviewing 
insurance and healthcare coverage, and stocking emergency 
supplies.
    In closing, I would just like to mention three very, very 
brief programs that our companies have undertaken which 
represent a broad array. Grainger, which is a company based in 
Illinois, has created a program called ``Ready When the Time 
Comes.'' It provides time and expertise through the American 
Red Cross to train employees, so with one call the new head of 
the American Red Cross can call Grainger and have 500 Red Cross 
volunteers, as opposed to one.
    My time is up, and the rest of my examples are for the 
record. Thank you so much.
    [The statement of Ms. Schneider follows:]

                Prepared Statement of Johanna Schneider

Introduction
    On behalf of Business Roundtable and our members, I would like to 
thank the committee for this opportunity today to talk with you about 
the Partnership for Disaster Response.
    Business Roundtable is an association of chief executive officers 
of leading U.S. companies with over $4.5 trillion in annual revenues 
and more than 10 million employees. Our companies comprise nearly a 
third of the total value of the U.S. stock market and represent more 
than 40 percent of all corporate income taxes paid.
    Collectively, our members returned more than $112 billion in 
dividends to shareholders and the economy in 2005. Roundtable member 
companies are also extremely generous, with more than $7 billion a year 
in combined charitable contributions--nearly 60 percent of average 
total corporate giving. Our members are also technology innovation 
leaders, with $90 billion in annual research and development spending--
nearly half of the total private R&D spending in the U.S.
    We launched the Partnership for Disaster Response in May of 2005 
following the devastating tsunami in Asia and the subsequent outpouring 
of contributions from the business community. Even though companies 
contributed generously--cash, products, services and expertise--our 
CEOs saw a need to create a more coordinated effort to prepare for and 
respond to catastrophic disasters.
    To that end, the Partnership aims to capitalize on the many 
resources and capabilities of the private sector to accelerate on-the-
ground relief and recovery activities to help save lives. The 
Partnership works to foster public-private collaborations to prepare 
for the health, social and economic burdens created by disasters in the 
United States and abroad. The Partnership also works to ensure that the 
business community's response efforts address a community's most 
critical needs, by mobilizing the unique and diverse assets of our 
member companies.
    The U.S. private sector, which owns and operates nearly 85 percent 
of the nation's critical infrastructure, has myriad resources useful in 
disaster preparedness and response. These range from basic necessities 
such as food and safe drinking water to communications and energy 
networks, as well as logistics and technical expertise.
    Business Roundtable member companies contributed more than $515 
million to the Asian tsunami, Hurricane Katrina and the South Asia 
earthquake relief efforts. In addition to swiftly responding to 
disasters with money, products and expertise, they play an important 
role in public education about disasters.
    As major employers, they can be important vehicles for 
communicating about preparedness. If our employees are equipped with 
the appropriate information and tools to protect themselves and their 
families in the event of a disaster, our communities will be better 
prepared.
    Twenty-five CEOs--from across various industries--have joined 
forces as members of the Partnership for Disaster Response Task Force 
to leverage their corporate resources and expertise to create a more 
effective response to disasters. The new chairman of this Task Force is 
Richard L. Keyser, Chairman and CEO of W.W. Grainger, Inc. Task Force 
Members include:

Vice Chairman:
Mr. William R. McDermott            Mr. Charles Prince
SAP Americas, Inc.                  Citigroup

Mr. Ramani Ayer                     Mr. David M. Ratcliffe
The Hartford Financial Services     Southern Company
 Group

Mr. Gary D. Forsee                  Mr. Edward B. Rust, Jr.
Sprint Nextel                       State Farm Insurance Companies

Mr. H. Edward Hanway                Mr. Stephen W. Sanger
CIGNA Corporation                   General Mills, Inc.

Mr. Charles O. Holliday, Jr.        Mr. Robert W. Selander,
DuPont                              Mastercard

Mr. William G. Jurgensen            Mr. David B. Snow, Jr.
Nationwide                          Medco Health Solutions, Inc.

Mr. Thomas W. LaSorda               Mr. J. Patrick Spainhour
DaimlerChrysler Corporation         The ServiceMaster Company

Mr. Edward M. Liddy                 Mr. Sy Sternberg
The Allstate Insurance Company      New York Life Insurance Company

Mr. Steven J. Malcolm               Mr. Douglas W. Stotlar
The Williams Companies, Inc.        Con-way Incorporated

Mr. Charles G. McClure              Mr. Martin J. Sullivan
ArvinMeritor, Inc.                  American International Group, Inc.

Mr. Daniel H. Mudd                  Mr. Miles D. White
Fannie Mae                          Abbott Laboratories

Mr. Thomas C. Nelson
National Gypsum Company

Mr. George Nolen
Siemens Corporation



The Partnership in Action--Providing Resources and Information
(www.respondtodisaster.org)
    The Partnership serves as a valuable resource, helping companies 
and their employees better prepare for disasters. In October 2006, the 
Partnership launched www.respondtodisaster.org, the first comprehensive 
clearinghouse of information to help the business community better 
prepare and respond to disasters. The Web site features commonly 
requested information and valuable tools on how companies can better 
integrate disaster planning into their business continuity plans and 
communicate to their employees about disaster preparedness and 
response, including:
        <bullet> Company best practices on disaster preparedness and 
        response
        <bullet> Guidance for developing employee volunteer and 
        matching gifts programs
        <bullet> Advice on HR benefits and financial issues concerning 
        employees who may be affected by a disaster
        <bullet> Strategies for tracking employees during a disaster
        <bullet> Information on relief agencies and how best to support 
        their work
    The Partnership has also developed various information guides and 
resources designed to help companies and their employees during all 
phases of a disaster--prepare, respond and recover. Several were 
distributed at the Partnership's 2006 Conference, ``Beyond Cold Cash: 
Unlocking the Value of Corporate America's Role in Disaster Response,'' 
which included more than 100 representatives from business, government 
and relief agencies.
    In time for the 2007 hurricane season, we created and distributed 
several new guides. All of the materials we have produced are posted on 
the Partnership's Web site and are available to the general public.
    Mr. Keyser, the chairman of the Partnership, sent a letter to the 
CEOs of all Roundtable member companies on June 1, the start of 
hurricane season, encouraging them to use the resources the Partnership 
had developed to help the business community more effectively prepare 
and respond to disasters. He highlighted the fact that advance planning 
and educating a company's workforce about preparedness can help protect 
employees, businesses and communities and reduce the impact of a 
disaster.
    We have developed six discrete guides to help companies in managing 
disaster-related issues:

1. Family Preparedness Guide
    The Partnership understands how companies can be an important 
vehicle for educating the public--starting with their own workforces--
about what to do to better prepare for a disaster.
    To underscore the importance of this issue, the Partnership 
recently developed a Family Preparedness Guide to:
        <bullet> Help companies educate their employees about personal/
        family disaster preparedness
        <bullet> Encourage them to take specific actions with their 
        family to better prepare for a disaster--including a checklist 
        of emergency supplies
        <bullet> Offer additional resources on disaster and family 
        preparedness planning, such as The Department of Homeland 
        Security's Ready.gov program and information from the Centers 
        for Disease Control on pandemic preparedness
    Businesses are able to post the Family Preparedness Guide on their 
company's intranet and distribute the guide through internal 
newsletters and emails to remind employees about the importance of 
having a plan in place with their family before a disaster strikes. The 
guide can be found at: Family Preparedness Guide

2. Top 10 Myths about Disaster Relief
    Far too often individuals' decisions about whether to contribute 
and how to contribute to disaster response and recovery efforts are 
influenced by false or inadequate information. Misinformation can 
inhibit the relief process and limit the usefulness of individual 
giving. The Partnership compiled the Top Ten Myths of Disaster Relief, 
which aims to identify and correct some of the most common 
misconceptions about disaster response.
    The document can be found at: Top Ten Myths on Disaster Relief

3. Do's and Don'ts of Effective Giving
    Good decisions about how to assist the victims of disasters are 
invariably based on good information about what is actually needed to 
help with disaster relief and recovery efforts. The Partnership created 
Do's and Don'ts of Effective Giving to provide employees with accurate 
information about how they can best contribute after a disaster. The 
guide explains why cash is almost always the most valuable contribution 
and how certain product donations--in spite of good intentions--can 
actually impede a relief effort by creating bottlenecks in transporting 
needed goods and taking up limited warehouse space.
    The guide can be found at: Do's and Don'ts of Effective Giving

4. Helping Employees Affected by a Disaster
    In preparing for a disaster, companies should also consider how 
they could help employees who may be directly affected because they 
live in the region struck by a disaster. Human Resources departments 
can take steps regarding financial assistance and benefits programs 
well in advance of a disaster to help their employees and their 
families who might have suffered personal hardship because of a 
disaster.
    The Partnership worked with KPMG, a leading financial services 
firm, and the Society of Human Resource Management to create Helping 
Employees Affected by a Disaster: A Human Resource Guide on Benefits 
and Financial Issues, that covers the following issues:
        <bullet> Financial assistance to employees through grants, 
        loans and other vehicles
        <bullet> Tax and legal implications of various employee benefit 
        programs
        <bullet> Advice on how to create an employee assistance program
        <bullet> Contributions to charitable causes
        <bullet> The importance of amending employee benefit plans in 
        advance of a disaster
    The guide is specifically designed for Human Resources 
professionals and is posted on the Partnership's Web site. It can be 
found at: Helping Employees Affected By a Disaster

5. Rebuilding Communities
    Restoring a community devastated by disaster is critical in 
maintaining a robust workforce and customer base. A community's 
recovery from a disaster is a complex and long-term process that 
involves a range of activities and many participants. Recovery involves 
short-term restoration of essential community services as well as long-
term rebuilding and, ideally, mitigation against future crises.
    Historically, the private sector has contributed generously to 
immediate disaster response efforts. However, businesses often struggle 
to find the best way to help with a community's long-term recovery. 
Companies may be inundated with requests to rebuild health clinics, 
libraries, playgrounds, schools and other community services damaged 
during a disaster.
    The challenge is deciding which of these worthwhile causes to 
support to help a community return to normal and how to best 
incorporate employees into the process. Employee volunteerism can bring 
myriad benefits to people who are in need of help, to companies and to 
employees themselves.
    To address these issues, the Partnership created Rebuilding Our 
Communities: Helping Companies Set Priorities to Aid Long-Term 
Recovery, which outlines the issues companies should consider when 
setting priorities in contributing to recovery efforts. The guide is 
designed to help businesses ask the right questions to gather the 
information they need to use their resources effectively to help 
communities and their pool of employees recover from a disaster.
    The guide is designed for Community Affairs and Philanthropy 
professionals and is posted on the Partnership's Web site. It can be 
found at: Rebuilding Our Communities

6. Protecting Businesses
    During a disaster, companies have valuable physical, business and 
human assets to protect. Business continuity planning is a critical 
component of a company's preparedness for the disruptions that a 
disaster may bring and can help minimize or even prevent serious damage 
to a company's employees, facilities, reputation and future. An 
important element of business continuity planning is identifying and 
securing alternative locations to maintain a company's operations.
    To help companies navigate the complicated process of sharing 
office space, the Partnership created Protecting Your Business: Issues 
to Consider When Sharing Office Space After a Disaster. The guide 
provides an overview of key issues that businesses should consider when 
entering into an office-sharing agreement immediately following a 
disaster. The guide provides helpful information for both the hosted 
company and the host company and addresses the following issues:
        <bullet> Organizational and cultural differences
        <bullet> Tax credits
        <bullet> Insurance coverage
        <bullet> Real estate and leasing concerns
        <bullet> Security provisions
        <bullet> Communications
    The guide will be most useful for Security, Real Estate, Tax and 
Legal professionals and is posted on the Partnership's Web site. It can 
be found at: Protecting Your Business

The Partnership in Action--Examples of Preparedness
    The following are three case studies of companies that excelled in 
different aspects of disaster preparedness, including training 
employees as volunteers; having a system in place to track missing 
employees; and helping small and medium-sized businesses prepare.

        1. W.W. Grainger: Training Volunteers in Advance
        For employees at Grainger, a distributor of facilities 
        maintenance supplies, the phrase ``ready when the time comes'' 
        took on a whole new meaning when Hurricane Katrina struck. 
        Before the hurricane, Grainger had partnered with the American 
        Red Cross to train employees to staff emergency call centers as 
        part of the NGO's ``Ready When the Time Comes'' disaster 
        preparedness program. As a result of these efforts, Grainger 
        had a cadre of well-trained, experienced employee volunteers 
        ready to man Red Cross phone lines at Chicago and Denver 
        chapters for more than 450 hours. The program made it possible 
        for employees to personally assist people affected by the 
        disaster, even from afar.

        Grainger employees also made significant contributions to the 
        American Red Cross' disaster relief fund, which the company 
        complemented with a unique 4-to-1 employee matching gift 
        program. Recognizing the dire needs of local business that 
        accompany a calamity of this scope, Grainger also lent support 
        to the Baton Rouge Area Foundation, which is dedicated to 
        helping small businesses based in Louisiana recover and grow. 
        The company donated $1 million, along with in-kind donations, 
        to these efforts.
        ``The business community can be an enormous resource for 
        providing disaster relief, not only with money and products but 
        also with its greatest asset: hard-working, dedicated people,'' 
        said Grainger CEO Richard L. Keyser. ``By providing our 
        volunteer employees with training in advance, we were able to 
        become part of the solution when disaster struck.''

        2. PriceWaterhouseCoopers: Creating a Call Center for Employees
        A system of logs, databases, and employee preparedness allowed 
        financial services firm PriceWaterhouseCoopers (PwC) to account 
        for all of its New Orleans employees within 48 hours of 
        Hurricane Katrina in 2005. Before the hurricane, PwC had set up 
        an automated emergency check-in procedure for its employees. 
        The process allows employees to check-in via phone, company e-
        mail (including Blackberry), and personal computers. Wallet 
        cards, refrigerator magnets, and ID badge stickers serve as 
        constant reminders.

        In the wake of Katrina, PwC also was able to locate employees 
        through company travel logs and, when necessary, through 
        activity on company-issued laptops and credit cards. The 
        company even tracked and located retired employees through up-
        to-date records, and helped employees who were not in the 
        affected regions locate their relatives who were.

        Once all employees were accounted for, PwC was able to provide 
        short-term housing assistance for staff who needed it and 
        longer-term financial relief to those most devastated by the 
        disaster.

        ``Before PwC could even begin to provide the support we had 
        available--temporary housing, temporary funding, cell phones 
        for communication, rental cars--we had to locate our staff and 
        establish contact,'' said Stephen Malloy, PwC's Crisis 
        Assessment Team leader. ``By planning ahead and establishing a 
        proactive method of contacting our people in an emergency, we 
        were able to quickly account for all of our staff even under 
        the worst of conditions. It was a very stressful, emotional 
        time for our people and their families, and we were glad we 
        could be a source of information and support for them.''

        3. Office Depot: Protecting Your Most Important Assets
        The massive destruction and dislocation caused by Katrina 
        carried with it a lesson that disaster planning needed to be 
        more comprehensive than anyone previously thought. Yet many 
        small--and medium-sized businesses assumed disaster planning 
        and preparation to be both complicated and expensive.
    In 2005, Office Depot, a leading global provider of office products 
and services, weathered four major hurricanes at its corporate 
headquarters in South Florida and across nearly 100 stores in the Gulf 
region. As a result, Office Depot gained real world experience in 
disaster planning and recovery, and with those ``lessons learned'' in 
mind, the Company launched an educational campaign dubbed Disaster 
Preparedness: Advice You Can Depend on to Weather Any Storm.
    The campaign launched prior to the 2006 hurricane season and 
consisted of an online brochure, free online seminar, broadcast media 
tour with Office Depot's internal expert, as well as simple tips and 
recommendations for how companies can protect their most important 
assets--their people and their data.
        In times of disaster, it is not business as usual. Focus must 
        be on getting business operations back and running quickly and 
        helping employees navigate personal issues. Office Depot 
        recommends establishing a clear process for how employees can 
        contact one another in the event of a disaster and then 
        periodically reviewing these plans with the employees.
        This type of preparation and support will come back to the 
        company in the form of loyalty. The key is to build a business 
        case that outlines value beyond simple risk reduction. Simple 
        tasks such as backing up data on a regular basis and storing it 
        in alternative ways can improve the cost-efficiency of business 
        operations and technology investments.
        ``Planning is essential,'' said Tom Serio, Director of Global 
        Business Continuity Management for Office Depot. ``Ultimately, 
        it is about business survival. A contingency plan can ensure 
        that your business operations won't come to a halt when faced 
        with unexpected events. It doesn't have to be a million dollar 
        solution, just a common sense one that protects you, your 
        employees and your business.''

The Partnership in Action--Collaboration and Outreach
    Since its inception, the Task Force has been working closely with 
the federal government, relief agencies and business associations to 
ensure that the private sector is fully integrated into the nation's 
disaster response planning.

Federal Government:
    Systematic communication with the federal government at the time of 
a disaster is essential to maximize the effectiveness of the business 
response effort and protect employees, communities and facilities and 
maintain commerce.
    Companies often need government assistance to coordinate supply 
chains within states, across state lines and nationally. On the flip 
side, Business Roundtable members have much to offer the government, 
including the ability to quickly provide on-the-ground information as 
well as resources to speed recovery efforts.
    In December 2006, the Partnership organized a meeting with senior 
government officials from the White House, the Department of Homeland 
Security and the Federal Emergency Management Association to agree on 
priority areas of public/private collaboration. Since the meeting, we 
have been in regular contact with government officials to follow-up on 
action items and next steps. We have also been involved in contributing 
to the revision of the National Response Plan.

Business Associations:
    To leverage the resources of the business community, the 
Partnership has joined forces with other business associations 
including the U.S. Chamber of Commerce, Business Executives for 
National Security (BENS), PhRMA, National Association of Manufacturers, 
and the Financial Services Roundtable. We are sharing best practices 
and collaborating to address issues of importance to all businesses, 
such as credentialing to ensure access to facilities in a disaster 
region. Our goal is to expand our reach, better coordinate emergency 
response efforts and advocate--with one voice--for strengthened private 
sector involvement in our nation's disaster planning.

Relief Agencies:
    We are working closely with the American Red Cross and a cross-
section of international relief agencies to determine the best ways to 
enhance collaboration to aid in disaster preparedness and response.
    The Partnership's member companies have also developed and expanded 
their collaboration with relief agencies to maximize their impact after 
a disaster. Following are three examples of corporate employee disaster 
response initiatives:

The Partnership in Action--Communicating During a Disaster
    In order to ensure a coordinated disaster response, the business 
community developed an Emergency Protocol, the first-ever protocol to 
codify how the business community will communicate with the federal 
government and relief agencies during a disaster to address critical 
issues and accelerate on-the-ground response and recovery. The 
Protocol's objective is to provide quick, efficient support within the 
first 14 days of a natural or man-made disaster of such proportions 
that it requires the involvement of the greater business community.
    This protocol will leverage the Partnership's Business Response 
Teams to gather and communicate needs and concerns to the Task Force 
based on reports from member companies' local staff and partners based 
at the site of the disaster. Companies will then have the information 
they need to quickly provide resources, ranging from product to 
personnel, and address problems hindering the response effort. Critical 
information will also be elevated to the federal government and relief 
agencies to speed the response and recovery effort.

Conclusion
    Thank you again for this opportunity to talk with you about the 
work of the Partnership for Disaster Response. We look forward to 
continuing to work with the Administration and the Congress to enhance 
our nation's disaster response system. Working together--business, 
government, relief agencies and many others--we will continue to be 
vigilant in preparing our businesses, our employees and our communities 
for a disaster.

    Mr. Cuellar. Thank you very much for your testimony.
    And I want to, of course, thank you and all the witnesses 
for your testimony.
    At this point members now have an opportunity to ask our 
witnesses questions. I will remind each member that he or she 
will have 5 minutes each for questions.
    I will now recognize myself for questions.
    Mr. Gruber, according to your testimony, in just 5 years 
since the Citizen Corps was launched in the year 2002, it has 
grown over 2,200 state, local, tribal, territorial councils 
encompassing 75 percent of the nation's population. This has 
been done with very limited funding and no congressional 
authorization.
    In your opinion, how would increased funding and 
authorizing legislation positively impact the effectiveness of 
this program that you have been doing a good job on?
    Mr. Gruber. Sir, we would look forward to having an 
opportunity to discuss with you and the committee members an 
opportunity to look at authorization for Citizen Corps.
    I might add that, while we run a very lean operation, I 
think we get a phenomenal return on investment for the amount 
of money that we apply to the program. And I also hope we will 
have an opportunity to discuss how we leverage other programs.
    If I could just give you one example, in our most recent 
report on all our state and urban area projects--over 9,000 
projects--ranking all of those in order--there were about 35 
categories of capabilities--community preparedness, including 
citizen preparedness, was number three on states' and urban 
areas' priority ranking for investments.
    So I think that suggests that, while, again, the program is 
a very lean operation, states and urban areas are capitalizing 
on all their other program investments to apply to this very 
important process.
    Mr. Cuellar. Okay. Very good. Thank you.
    Chief Stittleburg, in your testimony you mentioned the Five 
Corps programs that operate not only locally, but also on a 
statewide basis. How does the Fire Corps promote the 
development of statewide or even regional education and fire 
prevention programs?
    Mr. Stittleburg. The Fire Corps program is initially 
directed at fire departments. It is, however, a fair analogy 
that it would be comparable to the national asset management 
system in the sense that it is expandable. The programs are 
designed to be used not only by local fire departments, but 
also regionally and statewide.
    And in fact, the one program from Arkansas that I mentioned 
has done exactly that, where a local program was developed and 
then achieved actually statewide and national exposure.
    Mr. Cuellar. Okay. Thank you.
    Ms. Chapline, as you discussed in your testimony, the 
largest utilization of the Texas Citizen Corps volunteers was 
in 2005 in the aftermath of hurricanes Katrina and Rita. The 
Harris County--my former colleague in the state legislature, 
Robert Eckles--Texas council built a functioning city virtually 
overnight to process over 65,000 evacuees from the New Orleans 
area in the Astrodome in Houston. More than 60,000 Citizen 
Corps volunteers contributed to the success of this operation.
    To what do you attribute the strength and success of the 
Citizen Corps Council in the Houston area, and what can other 
Citizen Corps Councils learn from that particular experience?
    Ms. Chapline. Thank you for your question.
    I think probably one of the most valuable things that they 
learned was that they had to be communicating with every 
different agency in their community in advance.
    That Harris County Citizen Corps Council meets on a very 
regular basis with many different nonprofits. They partner with 
Volunteers Houston. They partner with many different religious 
organizations. They partner with, of course, 211, with Red 
Cross, with Salvation Army and many other nonprofit 
organizations.
    When they got the call and they got around the table, they 
already knew all the agencies and what resources were brought 
to the table.
    The other thing that was very successful was that incident 
command worked. They had set up an incident command booth and 
center, and they managed that like a very tight ship. And they 
were able to very successful because of those two things, in 
addition to very good leadership.
    Mr. Cuellar. Okay. Thank you.
    Mr. Hill, the FEMA Reform Bill that Congress passed last 
year directs the National Council on Disability to be involved 
in the creation of everything from training and exercise 
programs to disaster housing strategies to the development of 
preparedness priorities for the department.
    Can you discuss some of those initiatives that you have 
been involved with in FEMA in the recent months?
    Mr. Hill. Thank you for your question.
    Those initiatives are the 10-point planner section of 513, 
and it will be led by the disability coordinator, once that 
person is appointed, which we expect to be quite soon.
    The National Council is going to bring the evaluations and 
the experiences that we have developed over the last 3 years to 
the FEMA effort to help FEMA network through community-based 
organizations that serve people with disabilities to take care 
of a lot of practical problems in some cases--for example, 
making sure that the vans that are intended to evacuate the 
disabled have wheelchair lifts; making sure that the locations 
that they are evacuated to are accessible, that the bathrooms 
are accessible; that if you have a disabled person who is on a 
ventilator, for example, or has special needs, that, one, the 
local emergency planner knows where those folks are, knows 
where to get them, has an accessible way to get them to a 
location where their needs can be taken care of, and they 
themselves, then, are more willing to evacuate.
    In some cases we have seen a reluctance on the part of the 
disabled to evacuate because they are not sure where they are 
being taken. In some cases the process of evacuating can be as 
dangerous as what they think they are exposed to as a result of 
whatever is creating the disaster.
    So our work is going to be to link FEMA in with the CBOs 
that can help with these kinds of local, practical, individual 
issues in advance, so that when an emergency occurs, you know 
in advance where all these folks are, and you have a plan, and 
perhaps mostly importantly, the individual that is disabled or 
needs help knows himself what his responsibilities are. Who do 
they call? If they want to be evacuated, who do they alert and 
when, so that they can get out in time? They have to be found 
and want to be found and want to be integrated, too.
    Mr. Cuellar. Thank you very much.
    I have a question for Ms. Schneider, but I will wait, since 
my time is up. I now recognize the ranking member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for 
his questions.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Gruber, in your written testimony you indicated that 
the Department's private sector office is working with the 
Ready campaign to promote Ready Business which, as you know, 
aims to help owners and managers of small and mid-size 
businesses to prepare for emergencies.
    Can you tell us a little bit more about that initiative, 
and also what sort of feedback are you receiving on the Ready 
Initiative and if there are any constructive criticisms, too?
    Mr. Gruber. Well, let me just mention I would be remiss if 
I didn't let you know, sir, that Ready is a full partner in our 
efforts. And in fact this week, as you well know, we have our 
national conference on community preparedness, and Ready is 
there. Ready has a booth. Ready has been overwhelmed with 
requests for information and follow-up from the conference, 
which is a good representation of the level of interest.
    And I think that these new initiatives, Ready Kids and 
Ready Businesses, are where we have often talked about families 
and individuals at home, but we overlook the fact of how much 
time--and I know you are probably an example of that--we end up 
spending in the workplace. And so we have to make sure we have 
the same emergency preparedness and thought process that goes 
into the workplace for individuals there as we do when they are 
home and when they are with their families.
    And so I think that is critical, again, for the 60 or so 
percent of our population that is in the workforce out there. 
So that is a key audience. And I wouldn't speak for our Ready 
program leaders, but I think that has been very successful. 
Again, I use as the illustration just what we have seen with 
the conference here with the overwhelming requests for 
assistance from Ready.
    Mr. Dent. You also indicated in your testimony that the 
Citizen Corps program is participating in the current FEMA 
effort to update the State and Local Guide 101, which, as you 
know, provides guidance to State and local officials on writing 
emergency operations plans.
    Do you have any figures on what percentage of the States 
are lagging behind in updating their emergency operations 
plans?
    Mr. Gruber. Well, as you know, we went out and looked at 
131 sets of plans, both state and 75 major urban areas. And we 
were out with technical assistance, providing support to them, 
but I think the best indicator of that is when I mentioned 
before about our report on 9,000 projects.
    Community preparedness was the third highest category, but 
planning was the second highest category with over 1,500 
projects. So what that suggested to me was that, as a result of 
that plan review and providing them with that feedback onsite 
about their plans, they have now taken their investments and 
put those against updating and modernizing their plans.
    If I could just throw one more point in there, it is not 
only about their emergency operations plans, but we are also 
getting terrific support from our office of civil rights and 
civil liberties on looking at peculiar special needs planning 
guides to make sure we address an area that we found that I 
think in general we would all say was deficient across the 
plan.
    Mr. Dent. Thank you.
    And to Mr. Hill, it is good to see you here in this new 
capacity. It was great working with you on the T&I Committee.
    What role has your council, the National Council on 
Disability, played in the development of the revised National 
Response Plan?
    Mr. Hill. Well, I think the Saving Lives report was an 
important basis for the two committees that were drafting the 
Post-Katrina Reform Act to understand what deficiencies--and 
maybe deficiencies isn't the right word--but what improvements 
needed to be included--
    Mr. Dent. Can I interrupt you real quick? On the Saving 
Lives plan, are you aware if any of those recommendations by 
your council have been adopted by the Federal government?
    Mr. Hill. I think that certainly the performance goals that 
you would learn from what we produced in that report were 
included in section 513 of the Post-Katrina Reform Act.
    For example, we noticed that a lot of sharing best 
practices was not occurring between and among CBOs. That was a 
finding in the Saving Lives report. That later became an aspect 
of section 513 that the disability coordinator needs to fix. He 
or she needs to get local emergency planners to share what 
works for them when they are planning on evacuation of the 
disabled.
    Quite a bit of it went in there, in fact, and we were happy 
to see the Congress rely on that report, particularly to 
establish performance goals for the disability coordinator, and 
frankly, the existence of the disability coordinator. We hadn't 
had one before and didn't have the authority that it was given 
in that act, and we are very encouraged and think that working 
with FEMA, those goals in there are going to provide a much 
better evacuation and preparedness regime than we had 
previously.
    Mr. Dent. Thank you.
    And finally, real quickly, to Ms. Schneider, what has been 
the general response from the Business Roundtable's membership 
and their respective employees on the Partnership for Disaster 
Response task force? Does the Roundtable keep track of any of 
this feedback?
    Ms. Schneider. Thank you.
    It has been overwhelming. The individual companies, each 
and every one, have very robust programs in terms of both 
preparing their own workforce to be prepared in the event of a 
disaster in their local communities.
    So, in addition to their fiduciary responsibility for their 
employees and their communities, they have very robust programs 
where their employees are actually engaged in volunteer efforts 
to broaden their reach through the community.
    I don't have any number of employees that are currently 
active, but it is a good idea for us to start to track that. 
This is a very new initiative for the Business Roundtable. It 
has really just been a full-fledged effort over the last year.
    But I will say it has been one of our most active task 
forces at the Business Roundtable in the short 13 months that 
it has been alive, and I think that is because, frankly, the 
private sector was so integral to the Katrina response, as you 
saw with Home Depot and Wal-Mart and others, that we felt that 
following that disaster, that if we did not get engaged, we 
would not be prepared for the next disaster.
    Mr. Dent. Thank you.
    I yield back the rest of my time.
    Mr. Cuellar. Thank you, Mr. Dent.
    The chair would now recognize other members for the 
questions they may wish to ask the witnesses. In accordance 
with our committee rules and practices, I will recognize 
members who were present at the start of the hearing, based on 
seniority of the subcommittee, alternating between the majority 
and the minority. Those members coming in later will be 
recognized in the order of their arrival.
    At this time the chair recognizes for 5 minutes the 
gentlewoman from the Virgin Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Good morning, and thank you for being here for this 
hearing, to our panelists.
    I want to address my first question to Ms. Chapline, 
because in your testimony you said you envisioned using the 
Citizen Corps in border security issues. Can you just briefly 
tell us in what way?
    Ms. Chapline. I can speak for our plans for our state.
    Mrs. Christensen. Yes, just your state.
    Ms. Chapline. Yes, thank you. And that is one of the goals 
in our statewide strategic plan for homeland security. I have 
provided that as an attachment to my testimony.
    And we are looking at potentially putting these volunteers 
possibly in an operations center, assisting the first 
responders. They will not be out on the front lines, but they 
will be assisting first responders in an operational manner. 
But it would be at the discretion of the local jurisdiction.
    Mrs. Christensen. And, Mr. Gruber, and I guess anyone else 
could probably add an answer if you so desire, but I was trying 
to find an Institute of Medicine report that came out a few 
years back on the response of individuals and communities to 
instructions during a disaster.
    And that report found that from the respondents that maybe 
as many as two-thirds in some instances would not likely 
respond appropriately to certain standard instructions in a 
disaster. Do these Citizen Corps programs help to address this?
    And given the fact that it appears that your funding is 
going down--to me, any plan will require the citizens of the 
area to be a part of the response program--if that report is 
accurate and these programs are important, then what is the 
reduced funding going to do to that?
    Mr. Gruber. Well, let me first say you hit on a very key 
point, and of course, one of the three important things Ready 
talks about is having a plan, having a kit, and most 
importantly, being informed, understanding the threats and 
hazards that you face as an individual or as a family, and 
whether you are at home or in a workplace.
    So one of the most impressive things that I have been 
involved in recently is we did a research roundtable that 
citizens co-sponsored with a science and technology 
directorate. We now have with our centers of excellence in the 
department an opportunity to get to what I think are some of 
the best disaster researchers, social scientists and others 
that are available to us.
    Mrs. Christensen. And can you tell me if they include any 
minority serving institutions, because different populations 
might respond differently?
    Mr. Gruber. Yes, ma'am, they are. These centers are 
generally consortiums of many institutions. They, in fact, do. 
But just quickly, to cut this--as others may want to join in 
here--that was very important.
    We also are doing research and publishing reviews. We have 
done four so far that talk very specifically to behavioral 
models and how do we make sure that we change behavior and we 
have people alerted to the right kind of appropriate actions to 
take in a hazard. So that is the cornerstone of success for all 
of these programs.
    Mr. Hill. If I can add just a--
    Mrs. Christensen. Yes.
    Mr. Hill. Emergency communications to evacuate need to also 
be designed for folks that may be deaf, may be blind, may not 
be able to process the information correctly. And so long as 
that is covered, I think you vastly improve the chances of 
somebody with a disability like that actually being able to 
follow the instructions. They have got to first be able to read 
them.
    Mrs. Christensen. Well, I think in your testimony, you talk 
about the mentally ill. What special preparations or 
considerations have taken place with regard to somebody who 
can't process or process it incorrectly?
    Mr. Hill. Well, the NCD published a report that I will 
provide you after the hearing to drill more deeply into that.
    Mrs. Christensen. I think we got it, but I got it too late 
to really get into it.
    Mr. Hill. Part of the issue there, I think, was the 
question of a person with issues along those lines being 
accommodating and admitting them into a recovery center or an 
evacuation site afterwards.
    In some cases they may have some medical needs that are not 
something that can be taken care of in a place like the 
Astrodome, for example. But that is not something unique to a 
psychiatric disability. For anybody with a disability, myself 
included, in a wheelchair, the Astrodome is no place where 
somebody like me could live for more than about a day. I have 
got to be somewhere where there are more physical resources. 
And so, in that sense, you face the same issues with someone 
like that.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Cuellar. All right. Thank you.
    At this time I will recognize the gentleman from 
Washington, Mr. Dicks.
    Mr. Dicks. Mr. Gruber, how long have you been with the 
department?
    Mr. Gruber. Sir, I was here since the start of the 
department. Our office was originally in the Department of 
Justice and then transferred into Homeland Security when it was 
established.
    Mr. Dicks. And how long have you been the acting deputy 
administrator?
    Mr. Gruber. Sir, just since March.
    Mr. Dicks. What happened to the predecessor?
    Mr. Gruber. Sir, this is a new organization. This is part 
of the realignment that was directed by the Post-Katrina 
Emergency Management Reform Act. Originally, we had a 
preparedness directorate that Undersecretary George Foresman 
was administering, and now that has been transferred into FEMA. 
And that happened on 1 April.
    Mr. Dicks. Is there a search for a full-time person?
    Mr. Gruber. Yes, sir. There is an active search. Yes.
    Mr. Dicks. Okay. In your statement I was impressed by what 
you said. Emergency responders in America make up less than one 
percent of the U.S. population. This roughly translates to one 
firefighter for every 280 people, one sworn officer for every 
380 people and one EMT paramedic for every 325 people.
    And hurricanes and other major incidents in recent years 
graphically demonstrate that there are not enough emergency 
responders to take care of everyone in every location during 
the most critical time, the first 72 hours after a disaster.
    In fact, the Los Angeles Fire Department estimates that in 
90 percent of all emergencies, it is bystanders or victims 
themselves who first provide emergency assistance or perform a 
rescue before a professionally trained emergency responder can 
arrive on the scene.
    So what do we do? I know you are doing your Ready and your 
Citizen Corps and all these programs, but what do we do about 
helping people to get better trained to be responders?
    Mr. Gruber. Well, we have three major initiatives. And, of 
course, you alluded to the Ready program, which is most 
important for broadly getting the word out across the country; 
Citizen Corps, which very actively looks at education and 
training; and then our education efforts that FEMA has been 
doing for a long time.
    But I wanted to hit on one key one, and that is that in my 
personal experience a long time ago as a volunteer emergency 
medical technician, I was always struck by the fact that 
citizens always have an imperative to action. And they are 
altruistic, and they are always looking for ways to help.
    What we have to do is provide them with the skills and the 
knowledge and the ability to make sure that they are taking 
actions to keep themselves and their families safe, but also 
that they are complementing, as you pointed out, a very 
stretched emergency response community.
    So everything we do to train--and the best example, I 
think, is our Community Emergency Response Teams. Just over the 
last 18 months we have seen a 30 percent increase. I think we 
now have 2,682 Community Emergency Response Teams across the 
country.
    So I think that represents people wanting to engage, 
understanding what they need to do, as Regina talked about 
earlier, and again, these programs all provide them with that 
opportunity to do what that imperative is that they all have.
    Mr. Dicks. Anybody else want to comment on that? Yes?
    Ms. Schneider. Yes, Congressman Dicks, I think to your 
point, the only way that the U.S. will ever have a surge 
capacity in a disaster is to have a massive volunteer effort. 
That is the only way to be able in each community all around 
the country to respond to catastrophic events.
    While we know the states and the belts where we can 
anticipate hurricanes, tornadoes and floods, terrorist attacks 
and other incidents that we cannot anticipate in regions that 
we cannot foresee will continue to need the same type of 
volunteer effort.
    That is why U.S. companies are stepping forward. The 
workforce is a ready population to participate. They want to 
participate. Most of our member companies provide the time to 
support them. I think only through volunteer activities--
    Mr. Dicks. Yes. Let me ask you this--
    Ms. Schneider. Sure.
    Mr. Dicks. --for the companies. Do you think they are doing 
a good job of providing security for their own assets? Are they 
into this idea of self-protection that they have got to protect 
their infrastructure themselves?
    Ms. Schneider. Absolutely. Every single one of our member 
companies has a business continuity plan. Every single one of 
our member companies has a chief security and chief risk 
officer. Those who did not have those after 9/11 procured those 
and brought in deputies.
    I think that is perhaps one of their highest orders of 
responsibility, to make certain that the workplace itself is 
safe and that the employees are safe and, frankly, that their 
shareholders and the fiduciary responsibility that they have to 
the shareholders is supported by these risk officers.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman. My time is expired.
    Mr. Cuellar. Yes, sir. Thank you, Mr. Dicks.
    At this time I recognize the gentleman from North Carolina, 
Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    I thank you all for being here.
    Yesterday the GAO released a report that I, along with 
Chairman Thompson and Representative Lee, had asked for them to 
do on the status of emergency planning for school districts 
around the country, because as you probably know, our school 
children spend the majority of their time really outside the 
home, in school.
    As a result of that, it is critically important that their 
safety at schools have the support they need to help with local 
officials, community organizations, that they are prepared to 
respond not only to natural disasters, but any manmade 
disasters that may occur.
    In addition, I asked them to identify several areas in 
which the federal government could do more to support those 
emergency plans. And the report mentioned the need to help 
community partners work with schools in planning for those 
emergencies.
    In its response to the draft report, the department liaison 
highlighted the role that Citizen Corps could play in helping 
schools in what it does in a number of states. The report 
recommended that DHS work to identify roadblocks to community 
partners who are training with schools and developing resources 
to address these factors.
    So this is my question, having given that little bit of 
information. I would like to ask each of our nonfederal 
witnesses if you considered the needs of schools in your 
emergency planning, and whether you have or have not, what 
resources do you think would be helpful to enable you to work 
more closely with schools at your community's ability to ensure 
that schools have a robust emergency response plan, because in 
every community, that is a big piece.
    So, in whatever order you would like to start, I would be 
interested in our nonfederal partners sharing your thoughts on 
that.
    Ms. Chapline. If I may, in our state in Texas, we have been 
begun collaborations with the Center for School Safety and many 
other locally based programs to promote preparedness and 
planning in schools.
    It has been noted in the past that schools have somewhat 
been left out of the emergency planning loop, and probably one 
of the best ways for us to bring them more into the loop is to 
continue the collaboration and to continue, if there were an 
appropriation of funds specifically earmarked for schools and 
if those funds had an attachment or a requirement for 
additional collaboration--
    Mr. Etheridge. Let me follow that with my next question I 
was going to ask you specifically. You are going to get this 
area because the department identified Citizen Corps Councils 
as a resource when they were here.
    Ms. Chapline. Yes, sir.
    Mr. Etheridge. Do you think that you have the resources to 
bring together school districts, fire responders, first 
responders and community partners to be trained for this 
purpose, for responding?
    And what limitations exist on the ability of the corps to 
fulfill this role? As the department has indicated, that is one 
they would like for you to fill. What are the limitations? You 
have just mentioned one in resources.
    Ms. Chapline. Yes, but Citizen Corps is a very grassroots 
effort, and we seek to partner with as many organizations as 
possible. We are fortunate that the Teen CERT curriculum was 
recently developed and nationally approved.
    And we are probably looking at this point--if we want to 
bring this, there have been many states that have been able to 
provide this training on a small level to look--
    Mr. Etheridge. Do you have any in place yet?
    Ms. Chapline. Yes.
    Mr. Etheridge. Where?
    Ms. Chapline. In Texas. I know that Harris County, Texas, 
has been extremely successful in doing that. There is--
    Mr. Etheridge. That is one county. How many other counties?
    Ms. Chapline. In the state of Michigan, they have been 
extremely successful in doing that. I will be happy to provide 
you with--
    Mr. Etheridge. Would you, please?
    Ms. Chapline. Yes, sir.
    Mr. Etheridge. I would be interested in what the percentage 
is. When we are talking about the country, we are talking about 
a pretty good size place.
    Ms. Chapline. Right. And I--
    Mr. Etheridge. And if we are talking about two counties in 
two states, that probably is not--
    Ms. Chapline. I know that this program has been offered. 
They had a pilot program that they brought across the nation, 
and there were many other states that they have brought this 
program to. And I will get the exact information for you and 
for your staff on where these programs--
    Mr. Etheridge. Thank you. I would appreciate that.
    The department has provided advice to the public and the 
community organizations, preparing through what is called 
ready.gov and other outlets. I would be interested in a 
response very quickly from each of you on how effective that 
is.
    Is it too generic? Or is it confusion to navigate? Or does 
it work? Can I just get a quick yes, no from each one of you? 
If it is workable or needs changing?
    Ms. Chapline. The Ready campaign has been extremely 
successful. They develop things on a national scale, but you 
can localize all of these things. They have been very 
successful.
    Mr. Etheridge. All right. Anyone else?
    Mr. Hill. I would add that the ability to localize issues 
there is I think from our point of view one of the best 
features of it.
    Mr. Stittleburg. Mr. Congressman, if I might just respond 
to your previous question about school planning and where that 
might fit into Fire Corps. Actually, it fits in in a couple of 
different places.
    As I mentioned, Fire Corps is non-operational personnel. In 
other words, we are not recruiting people to respond to 
emergencies. However, we are recruiting people from the 
community to provide skills that are of particular interest to 
us.
    Fire Corps fits into the school planning picture in two 
ways. One is the ability to recruit people who may have skills, 
such as retired school administrators and that sort of thing, 
in preparing such plans. And two, also in recruiting people who 
may be able to relieve administration burdens from emergency 
responders that then in turn can engage in that sort of school 
planning.
    Mr. Etheridge. Thank you. And the Business Roundtable?
    Ms. Schneider. Ready.gov, I think it is a work in progress. 
We have worked closely with the Homeland Security Department. I 
think that it is difficult for any federal entity, at least 
from our perspective, to understand how to integrate the 
private sector and the resources that we bring to bear. And so 
that is something we continue to work on almost on a daily 
basis.
    Mr. Etheridge. That would be my guess.
    Thank you, Mr. Chairman. I appreciate your indulgence, and 
I yield back.
    Mr. Cuellar. At this time we would like to recognize the 
gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, may I thank you for your 
leadership on this question and also for your kind indulgence, 
allowing me to join you this morning. I would like to 
personally work with you on these issues. I think both of us 
have jurisdictions that certainly find themselves in the eye of 
the storm on many occasions.
    I would hope that your committee might consider Mr. 
Stittleburg, if I have it correctly--I want to call you 
``Chief,'' but in any event, the idea of making the Fire 
Council a subset of the Citizen Corps. That might be a worthy 
idea to consider. I thought it was very thoughtful, so I thank 
him for that idea.
    You witnesses have captured my concern and imagination. We 
are on the floor as we speak with the Homeland Security 
legislation, and there are two key elements that I feel that 
FEMA has been drastically lacking in.
    Mr. Hill, you have literally given us a standard-bearer or 
roadmap for persons with disabilities and also persons 
suffering from mental illness. I am not sure whether you used 
New Orleans as a laboratory, but for those of us who spent time 
in New Orleans, you really could.
    We know that individuals suffering from mental illness were 
in essence dispossessed with no oversight. We know that the 
disabled lost their lives. One of the most stark examples, Mr. 
Chairman, was the nursing home that individuals literally died 
in their beds because of no way of evacuating.
    And also, the vulnerable communities. The largest loss of 
life came from the ninth ward, where people were not trained 
how to evacuate, how to stay in place, what to do.
    And so I just want to cite out of your particular statement 
what you cited from Representative Jim Ramstad that indicated, 
``Certainly the disaster of the Gulf Coast region exposed the 
enormous gap in emergency planning preparedness and management 
for people with disabilities.''
    I myself was at what we call TranStar during Hurricane 
Rita, fielding phone calls of people who were on dialysis or 
people who were on oxygen, could not move, were frightened, 
were not, if you will, able to remove themselves, neither their 
caretaker.
    We have something in Houston called 211, and we have been 
announcing it. We were in this weekend doing a top-off, and 
that is 211 to let us know where you are.
    My question, Mr. Hill, because my time is gone, just 
simply, would it be effective that FEMA particularly develops 
not a pilot program--there are some pilot programs that are 
addressing the question of vulnerabilities--but directly works 
to develop a scheme, a program that encompasses a roadmap, a 
directive, a special effort of those with disability?
    Mr. Hill. Section 513 of the Post-Katrina Reform Act has 
several programs that are not pilot programs and plans that are 
designed to achieve the outcome that I believe the program you 
described would have.
    Getting the local communities, the local emergency 
planners, to plan for evacuating the disabled, knowing where 
they are, what their needs are, alerting them for what they 
need to do when there is a disaster that requires an 
evacuation--
    Ms. Jackson Lee. Has that section passed yet?
    Mr. Hill. Yes, ma'am. This was a feature of the Homeland 
Security Appropriations Act last fall, and part of the FEMA 
Reform Act. These amendments, Section 513, I would be happy to 
provide to your staff. But those are the goals for those 
sections.
    Ms. Jackson Lee. But have they been implemented?
    Mr. Hill. They are beginning to be implemented right now.
    Ms. Jackson Lee. I don't think so. What example do you have 
of them being implemented?
    Mr. Hill. Well, I have correspondence yesterday from FEMA 
to the chairman of our council that the disability coordinator 
is going to be appointed imminently.
    Ms. Jackson Lee. Going to be appointed.
    Mr. Hill. Yes, ma'am.
    Ms. Jackson Lee. So that means that no programs have been 
established, which is the real question.
    Mr. Hill. Well, I would prefer to defer to Mr. Gruber on 
which programs have been established. From our point of view, 
we are partnering and working with them to implement that 
section, and it has the goals in mind that you are describing, 
ma'am.
    Ms. Jackson Lee. Well, it was over a year ago that you 
indicated that such programs were in, and the question I asked 
you, you did not answer. Would it be effective to have programs 
that particularly outreach to those who are disabled?
    Mr. Hill. Yes, ma'am.
    Ms. Jackson Lee. And in those programs, do you need funding 
resources to make sure that that occurs?
    Mr. Hill. In some cases that may be a need, yes, ma'am.
    Ms. Jackson Lee. Well, if you need equipment that is geared 
toward the disabled, would you not need funding to ensure that 
you had that?
    Mr. Hill. It depends on what capabilities a community-based 
organization that serves people with disabilities already have 
in place.
    Ms. Jackson Lee. And in vulnerable communities and rural 
communities that may be less resourced, would it seem that they 
would need to have a funding source?
    Mr. Hill. I think that is reasonable, yes, ma'am. In the 
more rural areas, you are likely not to encounter a 
particularly sophisticated CBO with resources and equipment for 
the disabled.
    Ms. Jackson Lee. And as well, you might not encounter an 
organized structure. Is that not correct?
    Mr. Hill. It is more likely, yes, ma'am. Part of the work 
that we intend to do with FEMA is to answer the questions that 
you are asking so that what resources we have or ask for from 
Congress can be directed to the places most needed.
    Ms. Jackson Lee. And do you know whether those vulnerable 
communities include populations of African Americans and 
Hispanics? Are they defined as vulnerable--racial categories?
    Mr. Hill. Our work today is focused on physical 
disabilities. The only subset of that is a high preponderance 
of the elderly. A lot of elderly folks have things you would--
    Ms. Jackson Lee. So there may be a slight difference in 
communities who may be disabled but also may be ethnic or may 
be poor. That poses even maybe more severe problems. They may 
not have a caretaker. They may be living by themselves. And 
maybe there should be defined programs that respond to those 
populations.
    Mr. Hill. Yes, ma'am. In every case where there is someone 
disabled and they are suffering from economic hardship, their 
challenges are more dramatic.
    Ms. Jackson Lee. Okay. And partly if they live in 
neighborhoods that may be racially isolated, which some of our 
communities do live in.
    Mr. Hill. Yes, ma'am, I can see that contributing to the 
challenges.
    Ms. Jackson Lee. Language questions--we had to deal with 
the Vietnamese, for example, fleeing from New Orleans. We 
needed individuals who were language sensitive. So if you look 
at these vulnerable communities, you need to have maybe more of 
a response that addresses some of their issues.
    Mr. Hill. Yes, ma'am, I can see that.
    Ms. Jackson Lee. So they would be of benefit.
    Let me quickly if I could, Mr. Chairman, just finish with 
Ms. Chapline.
    Ms. Chapline, with respect to Citizen Corps, which I am a 
strong proponent of, just in Texas--do you know where 
Sunnyside, Texas, is?
    Ms. Chapline. Yes, ma'am, I do. I believe it is in the 
Houston area.
    Ms. Jackson Lee. Do you have a Citizen Corps there?
    Ms. Chapline. Yes, ma'am, we do.
    Ms. Jackson Lee. Those individuals have indicated they 
don't have a Citizen Corps there. Who is leading that one in 
Sunnyside, Texas?
    Ms. Chapline. It falls into the Harris County Citizen Corps 
program. I believe that they actually had an event. It is 
called the Harris County Stunt Rodeo that happened a few months 
ago. There were several teams from Sunnyside, one from I 
believe it was the third ward and another from the fifth ward 
in those general areas.
    And I believe that is a population of senior citizens, and 
I could be mistaken, but I believe that they participated. And 
the Sunnyside group had participated in--
    Ms. Jackson Lee. Have they organized the neighborhoods in 
that area besides having teams in that area? Do you know?
    Ms. Chapline. I know that they are working toward that. 
They have a very aggressive training schedule, and they are 
working to organize many teams--
    Ms. Jackson Lee. Could you provide me with information as 
to any funding dollars that have come from Harris County on 
that particular issue?
    And let me close, because time is gone, just to pose this 
question. I notice that you have from the state of Texas 
utilization of the Citizen Corps for border security. What is 
the basis for that?
    Ms. Chapline. We intend to use the Neighborhood Watch 
program, which is an already existing program. We want to use 
existing resources that we have. We have--
    Ms. Jackson Lee. What would they be doing at the border?
    Ms. Chapline. They could potentially be supporting our 
border security operations, and only an operational sense, 
within an operation center. They will not be on the front 
lines.
    Ms. Jackson Lee. Mr. Chairman, let me just conclude by 
saying that I think this is an Achilles heel and a misuse of a 
Citizen Corps. I am reminded of going into Port Arthur right 
after Hurricane Rita and being on the telephone trying to find 
water and ice. I hope Citizen Corps to be part of that effort, 
either getting in front of a disaster--certainly a natural 
disaster--and being on the front lines when there is a manmade 
disaster.
    I think it is very challenging to allow states to be so, if 
you will, broad-based in their use of citizens to be on the 
border. And I know that is a statement for conference with 
immigration reform.
    I frankly totally disagree with that, and I would like to 
have a full explanation of why citizens are being used for 
border security that were initially intended, I think, in 
volunteer efforts that would enhance the safety of individuals 
and hopefully help them in the system as they evacuate.
    I also think FEMA has not been effective in reaching 
vulnerable communities, and I hope that, Mr. Chairman, we might 
be able to work together to ensure that that happens.
    Mr. Cuellar. Yes, ma'am, and we will be happy to do that. 
If you want, I would be happy to extend your time longer if you 
want to ask more questions, because I am just going to ask a 
few more questions and then close it up. So if you want to go 
ahead and continue with any other questions, I would be happy 
to go ahead and extend that time to you.
    Ms. Jackson Lee. You are very kind. Let me just get one 
further question to Ms. Chapline.
    Were your Citizen Corps out on the ground after Hurricane 
Rita in places like Port Arthur and Beaumont? I did not see 
them. What kind of role would you believe that they could play 
in that instance?
    Ms. Chapline. Yes, ma'am, they were.
    If I may clarify from a statement you had earlier, we were 
not speaking to use our Neighborhood Watch volunteers on the 
front lines at all. We would want to use them in an operational 
manner behind the safety of secure lines. So I just wanted to 
clarify that.
    Ms. Jackson Lee. I appreciate that. I don't believe they 
should be used for border security, period.
    Ms. Chapline. Okay.
    Ms. Jackson Lee. These are citizens, and there is far 
greater utilization of their needs, such as expanding their 
reach into vulnerable areas. So we have a philosophical 
disagreement, and I don't believe states should be using 
Citizen Corps individuals on difficult areas like the border 
security.
    Ms. Chapline. Yes, ma'am.
    Ms. Jackson Lee. But I would appreciate a report on where 
they were after Hurricane Rita and also their reach into those 
vulnerable communities.
    Ms. Chapline. In the areas that you mentioned specifically 
in Beaumont and Port Arthur, we do have a very strong following 
of Citizen Corps in Jefferson County, which I believe those 
jurisdictions encompass. They were at the staging center at 
Ford Park, which is in that area, and they were assisting in 
shelter operations for the most part.
    After the shelter operations officially closed, they were 
working at the discretion of the local jurisdiction as far as 
how they were utilized.
    Ms. Jackson Lee. I have a question, and I thank you for 
that, if I can get that in writing. Do you think, moving aside 
border security, that a Citizen Corps would also be helpful in 
the first moments after a disaster if they could be trained and 
protected?
    And I say that, because again, another vulnerable site, a 
public housing site in Houston after Hurricane Rita was 
probably 95 percent full, meaning those individuals with meager 
resources had not evacuated. In that instance there were people 
with spoiled baby formula, individuals who were on various 
medical equipment that obviously was not working because of 
lack of electricity, and there were no frontline people there 
that could have begun helping, frankly, by having prepared 
enough to go out into that area after the storm had passed.
    That would be, I think, an appropriate training facet of 
the Citizen Corps--in this instance, Texas--as opposed to 
border security. I just offer that. I am going to close without 
a response. I appreciate that in writing.
    The chairman has been very generous, and I yield back my 
time.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Ms. Jackson, and I also want to 
thank you for the leadership that you provide in our state, and 
you certainly got my interest on this Citizen Corps being from 
the border, from Laredo. I am certainly interested.
    Whatever you provide to Ms. Jackson, I would like to see 
that also. I want to see what Governor Perry and you all have 
in mind in providing that type of service on the border.
    Let me just, before I close--since each of you can ask each 
other questions, but I think you all got to listen to each 
other and had a good opportunity to see what all of you all are 
doing, and I am sure some of you all know each other.
    Let me ask you, Mr. Gruber, do you have any questions? If 
you could ask a question, what question would you ask of any of 
the panel members that you have there?
    Mr. Gruber. I think it is the one that is always of 
greatest concern to me. How can we reach more citizens? How can 
we change that behavior model? How can we educate and reach the 
communities that the member talked about?
    Again, we have a conference this week with over 600 
personnel from across the country here, discussing community 
preparedness, and so we are eager to get feedback on how we can 
improve these programs and give them greater utility.
    Mr. Cuellar. Anybody want to answer that question?
    Ms. Schneider. Yes, I would like to. I think our 
experience--brief, but our experience is that human behavior 
dictates that you have to find people where they already are 
congregating--probably at school; it is church; it is their 
workplace. That is where you are going to find the pool of 
people who together feel like they can accomplish more united 
than they can individually.
    And so you have ready-made audiences and you have ready-
made groups to try to access their knowledge, their patriotism 
and their desire to help to be first responders.
    So I agree that only a volunteer corps will do this, but 
the place to go, as we have, is into the areas where people are 
already working together in groups.
    Mr. Cuellar. And are we doing that to any extent, Mr. 
Gruber?
    Mr. Gruber. Yes, I think we talked, and I was remiss in not 
mentioning earlier that we have two new initiatives that we are 
looking at, which is a CERT program that we call All Ability 
CERT, which is specifically designed to reach people with 
disabilities.
    And then also there is a Business CERT, so that again--and 
I think it was very ably discussed here--to reach people where 
they are, where they gather together, and that is the 
workforce, that is in community settings, not just in their 
homes. So I think those were all very important points that 
were made today.
    Mr. Cuellar. Do we have a one-stop center in your Web page, 
a toll-free number where anybody can call, whether it is a 
small business or big corporation or if it is a church or 
school--is there something that is easy to understand?
    Mr. Gruber. Yes, sir. There is, of course, ready.gov. There 
is citizencorps.gov. There are toll-free numbers, both in 
English and Spanish, that are available. And I won't bore you 
with the statistics, but I know the toll-free number the last 
time I checked was well over--
    Mr. Cuellar. But how do we get that? I mean, you might have 
a toll-free number or you might have a Web page, but if you 
don't know that it exists, how do you get--I mean, if you go to 
one of my colonias in Webb County on the border and you ask 
them about that, they have no clue.
    Mr. Gruber. Right. And that is exactly, I think, the point 
that we have made here about how do we reach underserved 
communities in particular. And that is why we rely very much on 
our local councils, county councils, the parishes where we have 
people that are familiar with those settings and can reach that 
community. But that is the toughest challenge.
    Ms. Jackson Lee. Will the gentleman yield on that point?
    Mr. Cuellar. Yes, ma'am.
    Ms. Jackson Lee. This is the very line of reasoning I am 
going to. And let me just indicate why, just very briefly.
    He is going to the top locally, and the question is whether 
you are penetrating, because if you are going to the top--and 
there are some very able leaders, I am sure, in his county; 
very able leaders in my county, which happens to be Harris 
County and I want to pay tribute to their leadership--but they 
are not, Mr. Gerber, penetrating the colonias. They are not 
penetrating Sunnyside, 5th Ward, the east end in Houston. They 
don't have a clue.
    My question is, what is the oversight to know that these 
structures that you have are reaching these diverse communities 
and the resources getting to them?
    Just an example, calling Sunnyside 10 people down to the 
Astrodome for training does not reach the rows and rows of 
homes of the elderly, and that is what I am hearing the 
complaints about. There is no one going out to that community, 
taking the neighborhood, no one going out to the colonias and 
going into that Spanish-speaking, if necessary, and organizing 
on the ground.
    And so I am going to yield back to the chairman. I would 
like a full response of the funding. How far you are along on 
this new program that you are allegedly attempting, and what is 
the oversight for knowing that you are actually penetrating? 
Because I believe in the neighborhoods, we are not safe and we 
are not secure.
    I yield back to the gentleman. That is the very point where 
I was going.
    Mr. Cuellar. And you are right about that.
    Have you all worked with the national broadcasters? Years 
ago, remember the tests that used to be out there. Are you all 
using that?
    Mr. Gruber. I might just say for Ready that we have over--I 
think the last count was over $642 million in donated broadcast 
airtime and to the print media. But I fully appreciate, as you 
pointed out earlier, there are many audiences.
    We have to use every mechanism, whether it is going door 
to--and I know in Austin they have done that with firefighters 
going door to door with flyers to get the word out through the 
councils, through the media. We have to take every opportunity 
we can to get that word out to those communities, particularly 
those underserved.
    Maybe Regina wants to add.
    Ms. Chapline. We have been able to provide outreach 
opportunities. Our goal is to be able to provide funds to local 
jurisdictions. Local jurisdictions have a better idea of what 
the needs are in their community, and so providing funds to 
those local jurisdictions allows them to provide as much 
outreach as they can to all of those different populations.
    Mr. Cuellar. Okay.
    Mr. Stittleburg. I would simply suggest that with Fire 
Corps we have one additional advantage, and that is that we 
work through fire departments that are already in place, which 
is a major advantage for us.
    And we have a national toll-free line, 1-800-FIRELINE, 
which nationwide anyone can dial and learn how they can provide 
service through their Fire Corps or to their own local fire 
department.
    Mr. Cuellar. Okay. Thank you.
    Mr. Hill, if you had a question to anybody in the panel, 
what would you ask?
    Mr. Hill. I just look forward to looking with Mr. Gruber to 
get this disability coordinator appointed and get to work on 
section 513. That is it.
    Mr. Cuellar. An estimate when we can get that coordinator?
    Mr. Gruber. I think that is very close with naming the 
candidate, but we will say that in the absence of having the 
disability coordinator, we have been getting terrific support 
from our office of civil rights and civil liberties that have 
helped us over the course of several years.
    So we very much look forward, because we understand 
particularly now in work we are doing in the Gulf Coast states, 
but we are looking--I think this is the most robust evacuation 
planning effort I have seen in 30 years of either emergency 
management or when I was in uniform in the military--very 
robust planning effort. And I think we will get a lot of 
lessons out of that that will help us address these issues.
    Mr. Cuellar. Okay. Good. Well, make sure you all keep 
talking.
    Ms. Chapline, if you had a question to any member of the 
panel, what would you ask?
    Ms. Chapline. If I were able to pose a question to the 
panel, I would want to make sure, I guess, first that we have 
made a positive impression of Citizen Corps upon you and upon 
your committee and would want to know if you ever had any 
specific concerns regarding our program, how we can improve. 
How do you see us as improving at this point? We seek to do 
that.
    Mr. Cuellar. Okay. Good.
    Mr. Stittleburg, questions to any of the panel? We are 
talking from this side, not this way up here.
    Mr. Stittleburg. I don't have a question. I would simply 
request--as Fire Corps is concerned, we are still at early 
days; it is only 2.5 years old. I hope that we receive the 
support we need to continue with the program. I think it has 
shown remarkable success in a short period of time.
    Mr. Cuellar. Okay. Question or just a statement? No 
question to any of the panel?
    Mr. Stittleburg. No question. Only a statement.
    Mr. Cuellar. Okay. All right. Good.
    Ms. Schneider, if you had a question to any of your panel 
members there?
    Ms. Schneider. My question would be right now the response 
to disasters are a thousand strands that have to be woven 
together overnight to be able to respond to communities. And so 
my question is, how can the five of us in that vast array of a 
thousand strands work together better? Is it a yearly top-off 
exercise? Is it quarterly meetings?
    I just would ask, what is the best way to take all of these 
diverse entities that are not--we are not, obviously, funded by 
the federal government. We are not here before the committee to 
ask for money; we are here to offer expertise. So how can we 
coordinate better? That is my question.
    Mr. Cuellar. That is a good question.
    Mr. Gruber, do you want to answer that?
    Mr. Gruber. Sir, I would love to do that. I think the 
concept of Citizen Corps is what illustrates the best way to do 
that, and that is networks. And we have a highly decentralized 
structure in this nation--emergency management and all our 
disciplines. And it is huge, with over 3,000 counties and all 
the states and territories.
    So it is really about establishing resilient networks where 
we communicate with a high degree of frequency. I think we are 
looking at every tool that is available to us at the best 
guidance we can give for all our programs. But at the end of 
the day, it is about mutual trust and shared confidence that we 
all have across levels of government, with government and the 
private sector.
    And if I might, sir, just make one shameless plug for our 
National Preparedness Month that is coming in September, which 
is a great opportunity for all of us as leaders in this 
business to make the case to the nation. We had in 2006 almost 
1,400 organizations that were involved in that. States do a 
terrific job, and it is just a great opportunity for all of us 
together to make that message to all of our citizens.
    Mr. Cuellar. Okay. Let me ask you this just to tie in to 
the original question, I guess to everybody and the panel. If 
you had a map of the United States and you do a computer 
mapping as to where you have Citizen Corps, would you pretty 
much have it all covered or would there be a lot of empty 
spots?
    Mr. Gruber. And that is an excellent question, sir. We 
have, with the councils we have in existence, calculated that 
covers about 75 percent of the population. My concern is always 
about the underserved communities where we know we have income 
gaps in preparedness where we really have to focus and 
concentrate our efforts.
    So we are encouraged by the growth of Citizen Corps, by the 
growth of CERT teams, but we have established very ambitious 
performance measures and goals in our target capabilities that 
we have specifically for community preparedness that we want to 
get the coverage.
    We want to make sure 100 percent of all of our emergency 
plans appropriately show the role of citizens, address special 
needs populations, people with disabilities. So we have set out 
very clear benchmarks that we put out in our grant guidance. We 
have done that for 2 years.
    Mr. Cuellar. Okay. Thank you.
    Anybody want to answer that last question?
    If not, I want to thank all the witnesses for their 
valuable testimony. I hope that you all learned from each 
other, and we certainly did. And we are going to follow up on 
some of the points that you all brought up.
    Also keep in mind that the members of the subcommittee may 
have additional questions for you, and if you do have those 
questions and they do contact you, we ask you to provide your 
responses as soon as possible.
    Hearing no further business, this hearing stands adjourned. 
Thank you.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]


              APPENDIX: Additional Questions and Responses

                              ----------                              


                 Questions from Hon. Bennie G. Thompson

                      Responses from Corey Gruber

    Question: According to your testimony, in just five years since 
Citizen Corps was launched in 2002, it has grown to over 2,200 State, 
local, Tribal, and Territorial Councils, encompassing 75 percent of the 
nation's population. This has been done with limited funding and no 
Congressional authorization.
    Why do you think that these programs haven't received overwhelming 
Congressional support in the past few years?
    Response:
    Since its establishment, the Citizen Corps Program has focused on 
providing the tools and operational support for developing the national 
base of Citizen Corps Councils, Program Partners and Affiliates. The 
rapid growth of the community based network of Citizen Corps Councils 
and local Citizen Corps volunteer programs like Community Emergency 
Response Teams (CERT) stems primarily from the community level response 
to recent disasters. First, in the aftermath of recent disasters, local 
governments and emergency management and responder disciplines 
recognized that, despite the proud history of dedicated and heroic 
emergency response, preparedness for major disaster response and 
resilient recovery requires broad community collaboration and resources 
in addition to strengthening government capabilities. Second, based on 
our strong American tradition of individual and civic responsibility, 
citizens from across the Nation have consistently responded to 
emergencies and disasters by offering a helping hand to fellow citizens 
in need. The important relationship between these factors is supported 
by the evidence that the development of the community based efforts is 
particularly strong in communities and neighborhoods with a tradition 
of supporting civic involvement with government.
    The Administration has identified community preparedness as a 
national priority and the Citizen Corps Program as a key strategy for 
supporting government and nongovernmental collaboration for community 
preparedness. The Department provides critical resources to support 
this strategy through the Homeland Security Grant Program (HSGP) and 
the Urban Areas Security Initiative (UASI) in order to augment state 
and local resources for community preparedness based on state and local 
determination of Homeland Security priorities.
    These successes have been achieved through the continued support of 
the Administration and Congress, and the Citizen Corps Program looks 
forward to continuing its collaborative relationship with the 
Committee. Further, it appreciates the opportunity to provide Members 
with additional information on the important contribution that citizens 
can make to their own and to our nation's preparedness and resiliency 
to all types of threats. At this point, the program can now focus on 
extending and strengthening the nationwide network to support 
preparedness and participation in all communities.
    Question: Why did the Administration decide to keep the Ready 
program within in the Office of Public Affairs while Citizen Corps is 
moving into FEMA?
    Response:
    The Ready Campaign, launched in February 2003, is the U.S. 
Department of Homeland Security's national public awareness campaign to 
educate and empower Americans to prepare for and respond to emergencies 
including natural disasters and potential terrorist attacks. The goal 
of the Ready Campaign is to encourage our citizens who can prepare to 
do so, freeing up valuable response resources and helping make our 
Nation more secure, strong and resilient.
    Public communications and outreach is at the core of the Ready 
Campaign; therefore, it is important to keep it located in the Office 
of Public Affairs. The Ready Campaign has a Department-wide focus, 
providing a unified message on preparedness for all Components of the 
Department. It is also necessary that the program receive senior 
Department visibility as well as strategic coordination across the 
range of homeland security and preparedness programs in DHS.
    The Citizen Corps Program addresses a full range of hazards 
throughout each step of the emergency management cycle and, as such, 
the program fits well within the FEMA mission. Citizen Corps is a 
National hands-on, grassroots effort that improves individual and 
community preparedness and resilience, offering information, training, 
and active engagement through its five core Program Partners--Community 
Emergency Response Team, Fire Corps, Medical Reserve Corps, USA on 
Watch/Neighborhood Watch, and Volunteers in Police Service--as well as 
its extended network of 25 National Affiliate organizations. Citizen 
Corps and Ready work in tandem to promote community preparedness. In 
addition, Citizen Corps maintains a close, well-established 
relationship with the FEMA Office of Public Affairs. This relationship 
will help ensure that Citizen Corps activities and outreach will be 
coordinated with the activities through the DHS Office of Public 
Affairs.
----------

  Questions from Hon. Bennie G. Thompson for Responses from Philip C. 
                              Stittleburg 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
